<html>
<title> - BOKO HARAM: THE GROWING THREAT TO SCHOOLGIRLS, NIGERIA, AND BEYOND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






   BOKO HARAM: THE GROWING THREAT TO SCHOOLGIRLS, NIGERIA, AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2014

                               __________

                           Serial No. 113-172

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-018 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Sarah Sewall, Under Secretary for Civilian 
  Security, Democracy, and Human Rights, U.S. Department of State     7
Ms. Amanda J. Dory, Deputy Assistant Secretary of Defense for 
  African Affairs, U.S. Department of Defense....................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Sarah Sewall: Prepared statement...................    10
Ms. Amanda J. Dory: Prepared statement...........................    21

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................    69
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    72

 
   BOKO HARAM: THE GROWING THREAT TO SCHOOLGIRLS, NIGERIA, AND BEYOND

                              ----------                              


                        WEDNESDAY, MAY 21, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:53 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    Today, as we meet here, we have nearly 300 young girls from 
Chibok, in Northern Nigeria, that remain Boko Haram kidnap 
victims.
    It has been 5 weeks since they were abducted. Every passing 
minute makes their successful rescue less likely. And we meet 
today to ensure that the United States is doing everything it 
can to assist in their rescue. Just yesterday, the House passed 
a resolution pressing for more aggressive action.
    Many around the world are just now hearing of Boko Haram. 
Sadly, though, for communities in Northern Nigeria, they know 
the death and destruction that this group brings only too well, 
and they have known it for a number of years.
    They have known it for a number of years because, as Boko 
Haram has spread, they have continued to burn schools. As of 
today, over 500 schools have been destroyed. Over 100 teachers 
have been killed.
    This morning committee members had the chance to meet with 
Deborah Peter. Deborah, a young woman of just 15 years of age, 
is from Chibok, Nigeria, the same town where the recent 
abductions took place. Ms. Peter is seated in the front row. 
She is one of only three Boko Haram survivors in the United 
States. She courageously shared her traumatic experience at the 
hands of Boko Haram with us this morning. Her father and her 
brother--her father was a pastor--were executed in front of her 
eyes for not renouncing their Christian faith. His church was 
burned to the ground. We thank Deborah for being with us today. 
We thank her and her friends for traveling from rural Virginia 
to share her traumatic story in the hopes that the world will 
act.
    We are faced with two challenges in Northern Nigeria; in 
the near term, seeing these girls rescued, and in the long 
term, rendering Boko Haram unable to threaten the region. This 
is a group that has killed thousands, thousands, of Nigerians 
to date. And their loose title of the translation ``Boko 
Haram'' is ``Western education is a sin.'' Their mission is to 
carry out a war against those who educate or empower women. And 
the greatest sin to them is not treating women as chattel, 
which they do, or enslaving women, which they purport to 
justify, or selling women. No. The greatest sin to them is to 
be involved in educating or teaching young women how to read 
and write.
    And over time this group, Boko Haram, has developed a vast 
arsenal of weapons. They are an al-Qaeda affiliate. They have 
sworn their allegiance to al-Qaeda. They have received training 
from al-Qaeda groups. They have built up their resources with 
that support. And this means greater terror for the people in 
Northern Nigeria and greater challenges for Nigerian security 
forces.
    Unfortunately, these forces suffer unprofessional elements 
with poor morale. I have been in Nigeria several times. It is a 
struggle for the Nigerian military to cope with this threat, 
which has led some to say that we should not get involved. But 
it tells me otherwise. It tells me that U.S. involvement is 
critical. U.S. forces are well positioned to advise and assist. 
We can advise and assist Nigerian forces in the search and the 
rescue of these girls. In this role, U.S. forces expertly 
trained to deal with hostage situations, jungle environments, 
and in tracking could help Nigerians with intelligence, 
planning, and logistics. If some U.S. laws would hinder such 
assistance, the administration should use its waiver authority 
under these extraordinary circumstances.
    Why do we care? We care about Deborah, her friends and 
family. We care about a girl's right to an education. We care 
about human rights and religious liberty and the future of 
Africa's largest country, largest in population, largest 
economy.
    We have direct security interests. Commanders at the 
Pentagon have stated that Boko Haram is, in their words, a 
``threat to Western interests'' and one of the highest 
counterterrorism priorities in Africa.
    Pressure from this committee was critical in getting the 
State Department to designate Boko Haram as a Foreign Terrorist 
Organization. Indeed, the administration made that announcement 
in this room under pressure from us on this committee.
    As many have noted, it shouldn't have taken so long. We 
want to hear from the State Department and the Pentagon 
witnesses on the strategy we now have in place.
    Boko Haram, with heavy weapons and grenade attacks, is 
waging a brutal war against schoolgirls carrying backpacks, 
books, and pencils. We can't sit on the sidelines.
    And I will now turn to the ranking member for his opening 
comments, Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman. And thank you for 
holding this very timely hearing on Boko Haram.
    I would like to thank our witnesses, Dr. Sewall and Ms. 
Dory, for being here today.
    And, of course, I would like to welcome Ms. Deborah Peter, 
a brave young survivor of a Boko Haram attack in 2011. She met 
with members of this committee earlier this morning to describe 
her harrowing experience.
    Deborah, we are all grateful for your courage and your 
commitment to seeing that these horrible abuses are stopped so 
that no other family goes through what your family has gone 
through. Thank you for your courage. We are all very, very 
proud of you.
    And I must also say, since I had the opportunity to meet 
with her privately, how proud any parent would be of having a 
daughter like Deborah.
    So thank you, Deborah.
    Mr. Chairman, Boko Haram is an Islamic extremist group, 
increasingly active since 2010. It operates mainly in Northern 
Nigeria.
    As we all know, one of Boko Haram's most recent atrocities 
took place on April 14 of this year. That day nearly 300 
schoolgirls were doing what young women and girls all over the 
world do every day, studying for tests, playing with friends, 
building a future for themselves.
    That day Boko Haram, which roughly translates to ``Western 
education is forbidden,'' abducted these girls; tore them away 
from their families and their communities.
    Today, more than a month later, we still don't know where 
they are. Our thoughts are obviously with their families, and 
we pray that they are safely reunited as soon as possible.
    The United States and other international partners have 
offered assistance to bring the schoolgirls home, and we all 
hope those efforts will prove successful.
    I agree with Chairman Royce that we must do everything in 
our power to bring those girls home and the United States can 
be very helpful in assisting this process.
    But even as we work to address the crisis, we need to focus 
on the larger challenge: Stopping Boko Haram's reign of terror 
in Nigeria and beyond.
    Just yesterday Boko Haram set off two bombs in the city of 
Jos, killing over 100 people--100 innocent people. Two weeks 
ago the group attacked a market in the town of Gamboru, killing 
more than 300 people.
    Back in 2011, in one of their most high-profile attacks, 
the terrorist group bombed the United Nations' headquarters in 
Abuja, killing at least 21 people and injuring more than 120. 
You really have to be bold to attack a United Nations 
headquarters.
    So, all told, Boko Haram has murdered more than 5,000 
people over the last 4 years. Their victims are both Christians 
and Muslims, men, women, and children, and, of course, 
teachers.
    Before this brazen kidnapping, Boko Haram was virtually 
unknown around the world. As more of their violent history has 
come to light, the international community has reacted with 
shock, horror and disbelief. But the sad reality is that Boko 
Haram is not new and neither are their tactics.
    I think our witnesses can shed more light on the situation 
for us and for everyone following the plight of these young 
girls.
    How did Boko Haram emerge and grow into an extremist 
threat? What has allowed them to thrive as on organization? And 
what challenges does the U.S. face in working with Nigeria to 
disrupt and dismantle the group?
    Let me just say, contrary to some of the reporting I have 
seen, I know the difficulty in weakening Boko Haram has not 
been due to a lack of effort or an unwillingness to help.
    In fact, one of our major challenges is working with the 
Nigerian military itself. Its approach in Northern Nigeria has 
often alienated the very population that could be providing 
valuable information about Boko Haram's activities.
    But instead of forming these relationships, unfortunately, 
the military has too often built a record of indiscriminate 
destruction themselves, theft of personal property, arbitrary 
arrests, indefinite detention, torture, and extrajudicial 
killing of civilians, much of this with impunity.
    In addition, despite a recent intelligence-sharing 
agreement, there are legitimate concerns that intelligence 
shared with the military to assist them in their operations 
might be leaked. And to make matters worse, this corruption is 
rampant throughout the force. Nigerian security forces are the 
best funded on the African continent. Yet, many of the funds 
are siphoned off by corruption and troops often aren't paid a 
living wage, generating increased frustration in the ranks and 
fueling low-level corruption.
    So how exactly can the U.S. engage with a military force 
that sometimes lacks professionalism and often seems to fail 
with respect to human rights? And how do we convince Nigerian 
leaders that they aren't doing enough and, in fact, may be 
making the problem worse?
    Lastly, while we are very focused on recovering these girls 
and stopping Boko Haram, we need to look at the broader 
context.
    Years of economic stagnation and neglect have afflicted 
Northern Nigeria and created the sort of environment where 
terrorist groups thrive.
    In places where there is no support or opportunity, 
extremists find it easier to prey on vulnerable populations, 
preaching false ideologies of violence and hatred.
    To push back against this tide, I believe Nigeria's 
Government must address these issues of corruption by improving 
the professionalism of its security forces, and providing 
additional resources for education, infrastructure, and 
economic activity. In short, Nigeria must take a more holistic 
approach to counterterrorism.
    I look forward to hearing from our witnesses about how the 
U.S. can more effectively engage with the Nigerians when 
addressing the scourge of Boko Haram today.
    I regard Nigeria as our partner in this, and the United 
States needs to be helpful to them. We need to build an 
environment that forces development and prosperity in Northern 
Nigeria for tomorrow.
    So thank you, Mr. Chairman, for holding this hearing.
    And thanks to the witnesses and Deborah for appearing here 
today.
    I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    We go to Mr. Chris Smith, chair of the Africa subcommittee, 
for 1 minute.
    Mr. Smith. Thank you very much, Mr. Chairman. And, again, 
thank you very much for convening this extremely important 
hearing.
    Obviously, words are inadequate to express our concern--and 
I say that collectively for all of us--for the welfare and 
whereabouts of the abducted girls, as well as the outrage 
toward Boko Haram for this absolutely horrific act of 
aggression and violence against these young women.
    My good friend and colleague, Mr. Engel, just mentioned how 
Boko Haram was largely unknown around the world until this 
infamous incident, but not to Chairman Royce or Eliot Engel or 
Ranking Member Bass or me or any other member of this 
committee.
    We have been raising the concerns of Boko Haram for years. 
Especially since 2011, when they seemed to transition into a 
more lethal stage with the bombing of the U.N. mission in 
Abuja, but, also, the very real problem of not being designated 
a Foreign Terrorist Organization.
    I held two hearings on Boko Haram. Emmanuel Ogebe was at 
one of those hearings. As a matter of fact, I went with him. He 
joined us in Jos and in Abuja. We met with people who had been 
victims of fire bombings, and Christians as well as some 
Muslims, who were targeted for killings by these thugs.
    He made it very clear then--he is now accompanying Deborah 
Peter--how this is only going to get worse unless all means are 
used to destroy this terrible threat.
    And it took years to get the designation of the Foreign 
Terrorist Organization (FTO). I am looking forward to what the 
answer may be. It wasn't until we had another hearing that it 
was announced that, yes, it would be designated a FTO.
    I don't know--I still can't understand what the delay was 
when--I asked Ambassador Johnnie Carson repeatedly at one of 
those hearings--and that is the one that Mr. Ogebe testified 
at--why? Why the delay?
    I mean, we all need to be on the same page now and work as 
never before to assist the Government of Nigeria. But we lost 
some precious time, in all candor, by not designating Boko Hara 
as a Foreign Terrorist Organization earlier rather than later.
    Yield back.
    Chairman Royce. Thank you.
    Congresswoman Karen Bass isn't with us today as the ranking 
subcommittee member. She is in Africa.
    So we will go to Mr. Brad Sherman, chairman of the 
Subcommittee on Terrorism, Nonproliferation, and Trade.
    Mr. Sherman. Boko Haram is but one of many organizations 
using terror to try to impose a contorted version of 9th 
Century Islam. It touches our hearts to see the victims from 
North Africa, through the Middle East, and through South Asia.
    But it is also a threat to the United States. Whether these 
groups claim to be affiliated with al-Qaeda or don't claim the 
al-Qaeda franchise, whether their chief focus is local and 
their secondary focus is worldwide Jihad or the reverse, the 
war against violent extremism is not one that we can declare to 
be over just because we are tired of it. It has been one of our 
longest conflicts, exceeded at this point only by the Cold War, 
but it has to be won. We have to turn off the money to groups 
like Boko Haram.
    And I hope that we will get some testimony as to the Gulf 
oil, state and other money that is or is not being detected 
going to these groups.
    And we have to provide the military aid to the Nigerian 
Government and other host governments to deal with this 
extremism.
    I yield back.
    Chairman Royce. Thank you.
    Lastly, we go for 1 minute to Mr. Ted Poe, a former judge 
and the chair of the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    Mr. Poe. Boko Haram showed the world its evil ways when it 
arrogantly kidnapped over 200 innocent schoolgirls, threatened 
to marry them off to their fighters and traffic them out of the 
country as property and as slaves.
    As a judge, I have seen the ills of human trafficking and 
other despicable acts. And this is the ultimate human rights 
violation, but it is not a surprise, given who these outlaws 
are.
    Unfortunately, the State Department did not want to 
designate Boko Haram as a Foreign Terrorist Organization until 
14 months after the FBI and other government organizations made 
their plea to designate the group.
    In fact, the State Department didn't make the announcement 
until the day before my subcommittee held a joint hearing with 
Mr. Smith's subcommittee on the threat of Boko Haram in mid-
November of 2013.
    Interesting timing, wouldn't you think? We should have 
listed Boko Haram earlier. Instead, we worried about diplomatic 
relations. Nonsense rules the day.
    After fighting the FTO designation for so long, I am 
curious how the State Department has implemented the 
designation and what, if anything, we are doing to stop this 
Foreign Terrorist Organization. Do we have a plan? What is the 
plan?
    I yield back.
    Chairman Royce. We are joined this morning by 
representatives of the Department of State and the Department 
of Defense. We welcome them.
    Prior to being sworn in earlier this year as Under 
Secretary of State for Civilian Security, Democracy, and Human 
Rights, Dr. Sarah Sewall served as a senior lecturer in public 
policy at the John F. Kennedy School of Government at Harvard 
University. Dr. Sewall also served as Deputy Assistant 
Secretary for Peacekeeping and Humanitarian Assistance at the 
Department of Defense from 1993 to 1996.
    Ms. Amanda Dory is the Deputy Assistant Secretary of 
Defense for African Affairs in the Office of the Secretary of 
Defense. A career member of the Senior Executive Service, Ms. 
Dory previously served as Deputy Assistant Secretary of Defense 
for Strategy. She is a recipient of the Presidential Rank Award 
for her work on the 2010 Quadrennial Defense Review.
    And without objection, the witnesses' full prepared 
statements will be made part of the record. Members will have 5 
calendar days to submit any statements or questions to the 
witnesses or to submit any extraneous material for the record 
here.
    And we will start with Dr. Sewall. If you would summarize 
your remarks and hold it to 5 minutes. And then afterwards we 
will go to questions. Dr. Sewall.
    Ms. Sewall. Thank you very much. Chairman Royce--here we 
go.
    Thank you, Chairman Royce.
    Chairman Royce. Thank you. Make sure your microphone is on 
there.
    And, also, without objection, I would like to include for 
the record Ms. Deborah Peter's testimony, which she recounted 
and gave us this morning, members of this committee who met 
with her. We are going to make that part of the record. And 
thank you, Deborah, for that.
    All right. Dr. Sewall.

 STATEMENT OF THE HONORABLE SARAH SEWALL, UNDER SECRETARY FOR 
CIVILIAN SECURITY, DEMOCRACY, AND HUMAN RIGHTS, U.S. DEPARTMENT 
                            OF STATE

    Ms. Sewall. Chairman Royce, Ranking Member Engel, and 
members of the committee, thank you for inviting me here today 
to discuss Nigeria's struggle against Boko Haram, one of the 
most lethal terrorist groups in Africa today. And thank you, 
Mr. Chairman and the committee, for your longtime leadership on 
African issues.
    Over a month ago the world was outraged when Boko Haram 
kidnapped some 250 young women from a secondary school in 
Chibok, and the United States swiftly joined the effort to help 
the Government of Nigeria safely recover the hostages. 
President Obama pledged our full support, and President 
Goodluck Jonathan readily accepted Secretary Kerry's offer of 
assistance.
    Today in Nigeria's capital, Abuja, a robust 
multidisciplinary team from the United States Government is 
working hand in hand with Nigerian counterparts and teams from 
half a dozen other countries, such as the United Kingdom and 
France.
    Our military and civilian experts in intelligence, military 
planning, hostage negotiations, strategic communications, 
civilian protection, and victim support have been given 
unprecedented access and cooperation to assist Nigeria's effort 
to safely recover the kidnapped schoolgirls.
    This effort, one that would be daunting for any government, 
will necessarily entail not just a diplomatic approach, but, 
also, law enforcement and diplomat--not just a military 
approach, but, also, a law enforcement and diplomatic effort.
    During our trip last week, AFRICOM Commander General David 
Rodriguez and I met with Nigeria's top security officials to 
stress America's support for Nigerian efforts and to reiterate 
the need for Nigeria to redouble its efforts to defeat Boko 
Haram while respecting human rights and ensuring the protection 
of civilians.
    This past weekend Under Secretary of State for Political 
Affairs, Wendy Sherman, continued America's conversation with 
Nigerian President Jonathan, heads of state from neighboring 
countries, and other key partners at a summit in Paris convened 
by French President Hollande. Coming 1 day after Boko Haram 
killed and kidnapped Chinese nationals in North Cameroon. The 
kidnappings underscored why Boko Haram is a regional challenge.
    And while the kidnappings have cast a spotlight on this 
terrorist organization, I want to emphasize that, for roughly a 
decade, the United States has been working to help the people 
of Nigeria and the Nigerian Government address this terrorist 
threat.
    Today I would like to highlight some of the kinds of 
security assistance that we have more recently been providing 
to help Nigeria address Boko Haram.
    Fiscal years 2012, 2013, Department of State planned 
approximately $35.8 million in security assistance programs 
that would benefit Nigeria, subject to congressional 
notification and approval.
    We are working with vetted police and civilian security 
components to build Nigerian law enforcement capacities to 
investigate terrorist cases, effectively deal with explosive 
devices, and secure Nigeria's borders. We do this because the 
most effective counterterrorism policies and practices are 
those which respect human rights and are underpinned by the 
rule of law.
    We are also focusing on enabling various Nigerian security 
services, including the police, intelligence agencies, and the 
Ministry of Defense, refusing multiple information streams to 
develop a better understanding of Boko Haram.
    We engage in robust dialogue with our Nigerian counterparts 
on these activities, including through the U.S.-Nigeria 
Binational Commission's Regional Security Working Group. There 
is also a lengthy history of DoD involvement, which I will 
leave to my Defense Department colleague to describe.
    The Department has also considered other steps to support 
the fight against Boko Haram. As you know, its leaders do not 
have bank accounts and the organization is not structured as 
many other terrorist organizations against whom the United 
States has used particular legal designations.
    After careful deliberation and consultation with the 
Nigerian Government, the United States decided in June 2012 to 
designate Boko Haram's top commanders as specially designated 
global terrorists, which allowed us to implement an asset 
freeze, a travel ban, and a prohibition on providing weapons or 
material support to these designated individuals as relevant.
    In June 2013, we decided to add Abubakar--forgive my 
pronunciation--Shekau, Boko Haram's official leader, to our 
Rewards for Justice Program with a $7-million reward for 
information leading to his arrest.
    In November 2013, after implementing and assessing these 
earlier steps and building on our long record of security 
cooperation, and shortly after Nigeria and the United Kingdom 
made their own designations, we also designated Boko Haram as a 
Foreign Terrorist Organization.
    Our approach reflected our evolving assessment of Boko 
Haram's threat potential, the utility of additional sanctions 
of different types, and our close coordination with our 
partners.
    Significantly, while Nigeria had been reluctant to seek 
international attention to the Boko Haram crisis, it has now 
moved forward, in part, at our urging to request that the 
United Nations Security Council designate Boko Haram under its 
al-Qaeda regime.
    And while these efforts will make a difference, we continue 
to have concerns that corruption and human rights violations by 
government forces, particularly those forces that have operated 
in the northeast, continue to undermine the government's 
attempts to defeat Boko Haram militarily.
    Given these concerns, we continue to press the Government 
of Nigeria to demonstrate that it is working to protect 
civilians where Boko Haram is not, and this means ending 
impunity for human rights violations by security forces.
    Let me be clear that there is no equivalence between the 
actions of the Nigerian military and those of Boko Haram, a 
terrorist group that seeks to murder civilians in large numbers 
and terrorize the civilian population as a matter of policy, 
killing over 1,200 people in 2014 thus far.
    Yet, we also know the power of popular grievance narratives 
against the government, and it's incumbent upon Nigeria's 
Government to demonstrate through specific steps the will to 
ensure its forces protect human rights for all of its people 
and end impunity for those that use violence indiscriminately.
    Consistent with our council 2 months ago, the Government of 
Nigeria announced a multifaceted<greek-l>, quote, deg. ``soft'' 
approach to countering Boko Haram, and we are eager to see it 
implemented.
    And we are also eager to see the Nigerian Government 
address the underlying concerns that impede their ability to 
address Boko Haram.
    In closing, I will say that the State Department, like the 
American people, hopes very much to see the Nigerian 
schoolgirls reunited with their families soon.
    But we are also prepared for a long, tough fight to defeat 
Boko Haram and to help the Nigerian people realize the 
political and economic potential of their great country.
    Thank you.
    [The prepared statement of Ms. Sewall follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Chairman Royce. Ms. Dory.

STATEMENT OF MS. AMANDA J. DORY, DEPUTY ASSISTANT SECRETARY OF 
    DEFENSE FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Ms. Dory. Good morning, Chairman Royce, Ranking Member 
Engel, members of the committee.
    Thank you for calling us together to address the deeply 
disturbing abductions of more than 270 schoolgirls from 
Northern Nigeria by the terrorist organization Boko Haram some 
5 weeks ago. The global community has been horrified by this 
barbarous act.
    Within the context of the U.S. Government response, the 
Department of Defense is taking action to help the Nigerian 
authority's efforts to recover the girls safely and address the 
growing threat of Boko Haram.
    Sixteen DoD personnel from multiple locations have joined 
the multidisciplinary team of experts led by the State 
Department at our Embassy in Abuja.
    Their initial efforts have been to work with Nigerian 
security personnel to identify gaps and shortfalls and provide 
requested expertise and information, including the use of 
intelligence, surveillance, and reconnaissance support.
    We are also working closely with the U.K., France, and 
other international partners in Abuja to coordinate 
multilateral actions.
    Our intent is to support Nigerian-led efforts to safely 
recover the girls and help catalyze greater efforts to secure 
the population of Nigeria from the menace of Boko Haram.
    To be clear, immediate and long-term solutions to Boko 
Haram must be developed and implemented by the sovereign 
Government of Nigeria if sustained security is to be achieved.
    Extant in its current form since 2009, the Boko Haram 
threat has grown over the past several years, extending its 
geographic reach and increasing the sophistication and 
lethality of its attacks.
    Along with other U.S. departments and agencies, DoD has 
been engaging for some time with the Government of Nigeria to 
help build its capacity to respond.
    Beginning in January 2011, we have used the State 
Department-led U.S.-Nigeria Binational Commission as our 
principal forum to tackle the challenge of enhancing 
counterinsurgency efforts while developing a civilian-centered 
approach to security that is comprehensive, engaging law 
enforcement, border security, as well as the underlying 
contributors to instability, such as governance, education, 
health, and economic development.
    For its part, DoD is supporting the establishment of 
counter-IED and civil-military operations capacity within the 
Nigerian Army as part of Nigeria's security doctrine.
    We have also supported the establishment of a national-
level intelligence fusion capability to promote better 
information sharing among the various Nigerian national 
security entities.
    Most recently, in late April of this year, we began working 
with Nigeria's newly created counterterrorism-focused Ranger 
Battalion.
    As has been demonstrated recently, Boko Haram uses the 
lightly controlled borders between Nigeria and its neighbors 
for cross-border operations.
    Last week, France hosted a very timely summit at which 
heads of state from Nigeria, Chad, Cameroon, Benin, Niger, 
along with the U.S. and U.K., sought to improve regional 
collaboration.
    For our part, DoD and the Department of State are working 
closely together on a proposal to enhance border security along 
Nigeria's common borders with Chad, Niger, and Cameroon in 
support of a regional response to counter the threat posed by 
Boko Haram.
    The concept is to build border security capacity and 
promote better cooperation and communication among the security 
forces of each country with the aim of reducing Boko Haram's 
operational space and safe havens.
    As committed as the U.S. is to supporting Nigeria and in 
returning these girls safely, Nigeria's fight against Boko 
Haram is a very challenging case. In the face of a new and more 
sophisticated threat, Nigeria's security forces have been 
greatly challenged by Boko Haram's tactics.
    Also troubling have been the heavy-handed approaches by 
security forces during operations against Boko Haram, 
approaches that risk further alienating local populations.
    Consistent with U.S. law and policy, we review all security 
units nominated for assistance, and we do not provide 
assistance when there is credible information of human rights 
violations. With this important consideration in mind, we have 
worked to engage where we are able.
    No discussion of how to address Boko Haram would be 
complete without addressing some of the political dynamics in 
Nigeria and the underlying security environment.
    In spite of its vast oil wealth, Nigeria continues to face 
enormous development challenges. When these factors are 
combined with pervasive corruption and Boko Haram's brutal 
terrorization of the population, Northern Nigerians lack a 
reliable source of security.
    The long-term solution to Boko Haram cannot come solely 
from Nigeria's security forces, but, rather, also requires 
Nigeria's political leaders to give serious and sustained 
attention to addressing the systematic problems of corruption, 
the lack of effective and equitable governance, and the 
country's uneven social and economic development.
    While continuing to draw attention to these broader 
factors, we will remain sharply focused on the heartwrenching 
event that triggered this broader awareness of Boko Haram's 
depredations.
    DoD is committed to supporting Nigeria's efforts to locate 
and recover these girls. This will not be an easy task, as 
hostage recovery is a high-risk undertaking in the best of 
circumstances.
    If this terrible episode is to resolve with the girls' safe 
returns, the Government of Nigeria must continue to match its 
public statements with a serious and focused response that 
draws on all elements of its government, the influence of key 
social and religious figures, and the resources international 
partners are making available to assist.
    Thank you.
    Chairman Royce. Well, thank you for that testimony.
    [The prepared statement of Ms. Dory follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. As you testified, you do not provide 
assistance when human rights violations occur. However, there 
is a provision whereby, in an extraordinary circumstance, we 
could.
    And here is the argument that I would make about Boko Haram 
and why this is an extraordinary circumstance. You have a 
situation here where we are focused on the kidnapping of 300 
girls some weeks ago, but, in the meantime, more have been 
kidnapped.
    As we talk about it, an additional group of schoolgirls 
were kidnapped. As we talk about it, additional attacks have 
occurred, 118 killed this morning, you know, 300 killed a few 
weeks ago.
    As we talk about it, 500 schools have been destroyed, and 
Boko Haram--their modus operandi is to destroy the schools and 
then recruit young uneducated men into their ranks and teach 
them Jihad.
    And so, as the Jihad mushrooms out across North Africa and 
into Cameroon and into Chad and into neighboring states, we 
say, ``Well, you know, human rights violations have occurred in 
Nigeria; so, we are limited in what we can do.''
    The difficulty is that Boko Haram is in a process of 
expanding their terror and the frequency of these attacks, the 
attacks on girls, that has been an evolution.
    They have intimidated and frightened the Nigerian military, 
they are now to the point where a lot of military units have 
run away. And so they can go in and take girls and then, you 
know, they can turn them into concubines or sell them or, you 
know, enslave them, because that is what they are actually 
doing. They are enslaving.
    And I would say that is an extraordinary circumstance that 
might necessitate the U.S. We have U.S. forces well positioned 
to advise and assist Nigerian forces in the search for these 
girls and, in this role, U.S. forces are trained to deal with 
hostage situations. Unfortunately, the Nigerian forces are not. 
They are trained to deal and track in jungle environments.
    They can advise and assist right up to the point of an 
attack. They don't have to be involved in the attack. But they 
could use those unique assets that the U.S. has in terms of our 
spy satellite capabilities and et cetera in order to track and 
rescue these girls.
    This would be very similar to the mission that we have 
approved with respect to the Lord's Resistance Army. And for a 
number of years, if you think about it--how many years did it 
take us to galvanize some support against Joseph Kony?
    I think it was about 15 years of Joseph Kony marauding and 
kidnapping young boys and making child soldiers out of 12-year-
old boys and young girls and making them concubines. I think 
15,000 was roughly the number of people he slaughtered before 
we finally put him on defense by authorizing U.S. forces to 
help track him.
    So now he is the one that is being tracked instead of the 
one tracking others. Right? It used to be he would maraud--he 
would take his band into Congo or Northern Uganda or Southern 
Sudan or Central African Republic and just create mayhem.
    But now at least he is on the run. Somebody said this 
morning, ``Well, we haven't got him yet.'' No. We haven't 
caught him yet, but he is on the run. And there is little doubt 
that they are going to run him down, and it is a completely 
different situation than it was a couple of years ago when he 
was on the offensive.
    Now, you have got the same situation here. And, frankly, we 
should do the same thing. For the sake of humanity, we should 
do the same thing. We should not allow this cancer to spread 
the way it has.
    We heard from Deborah this morning--Deborah Peter--about 
the uncompromising position where they tell her father, you 
know, that he has to quit. He was a pastor.
    You know, they burned the church, they killed him, they 
killed her young brother, and now they have kidnapped her 
schoolmates. I think the time is at hand for the United States 
to help build the morale.
    Think about what this would mean to the Nigerian forces if 
we were willing to give them this assistance. You could ensure 
that the strategy for the rescue operation launched by them is 
very well planned.
    You could boost the morale and effectiveness of the 
Nigerian forces, and you could ensure that our intelligence, 
reconnaissance, and surveillance assets are put to best use.
    So I would just ask for your response, if you could, to the 
observation. Is there any reason why we can't offer that waiver 
and treat this the same way we have treated going after Joseph 
Kony?
    Ms. Dory. I think the waiver issue I would defer to my 
State Department colleague in terms of the specific provisions 
of Leahy.
    But what I could quickly do is agree in terms of some of 
the diagnostics as you look at the situation with the Lord's 
Resistance Army and why we are on a successful path 
collectively at this point, and how that pertains to the Boko 
Haram situation.
    You have identified, Congressman, the elements of success. 
You have neighbors who are working together under a regional 
task force construct to address the LRA challenge.
    You have a Ugandan Government dedicated to addressing the 
governance and the economic concerns of Northern Uganda, which 
helps give rise to the phenomenon of the Lord's Resistance Army 
in the first place.
    With external support, Uganda and the other forces have 
been able to develop an intelligence and information picture 
that has been very important and then launched a very 
successful information campaign that reaches the populations in 
the affected areas that are then able to further assist in the 
tracking operations.
    So I think many of those elements are very relevant to how 
we could productively work with Nigeria and its neighbors going 
forward vis-a-vis Boko Haram.
    Chairman Royce. And, Ms. Dory, I would just add one other 
thing for your consideration.
    And maybe Dr. Sewall would like to comment on this as well.
    But the one difference is that, with Boko Haram, we have a 
group that is a threat to U.S. interests as well, to quote the 
State Department testimony over on the Senate side, or perhaps 
it was the Defense Department.
    But there is no question that a Jihadist group like this, 
that directs its efforts and its bombing against those who 
believe in empowering women or teaching women, is also a threat 
to the United States and our interests.
    So it would seem to me that, if we are going to authorize 
this with respect to going after Joseph Kony, we certainly 
should do it here.
    Dr. Sewall?
    Ms. Sewall. Thank you for your observations. And I share 
your sense of urgency about the matter.
    I think, with respect to the specific question concerning 
sanctions, it is my understanding that there is limited waiver 
authority in the case of national security emergencies and that 
the decision rests at the highest levels of the government with 
regard to exercising a national security emergency exception.
    Chairman Royce. Is it under consideration as an exemption?
    Ms. Sewall. I can't speak to what the senior members of 
this government are discussing with regard to Leahy. I think 
the focus right now is very much on the safe rescue of the 
girls. And so, when I----
    Chairman Royce. Yes. But the Leahy Amendment is what 
prohibits our active cooperation. In the steps that I just 
enumerated here, you know, in the tracking on the ground and to 
be able to plan that attack on the ground, that is the whole 
point.
    I mean, we had the testimony by the Defense Department last 
week in the Senate that, ``This vetting is a persistent and 
very troubling limitation on our ability to provide 
assistance''--they are talking about the Leahy provision here--
``particularly training assistance that the Nigerians so badly 
need.'' So this is a problem.
    Ms. Sewall. And so I would like to address it.
    The issue is to disaggregate the immediate crisis and what 
options are available to deal with supporting the Nigerians in 
their effort to rescue the girls versus longer-term systemic 
and force-wide engagement.
    And I think it is very important to both disaggregate those 
and then to look at the facts as they pertain to each case.
    In the first case, I spoke yesterday to the deployment team 
in Abuja, and they are very pleased with the growing level of 
cooperation that exists, both within the Intel Fusion Center 
and with their broader discussions with their Nigerian 
counterparts.
    They are hopeful that U.S. assistance will be increasingly 
useful to the Nigerians in their effort, and they, nonetheless, 
rely on choices made by the Government of Nigeria in terms of 
what they would like to avail themselves of and how to proceed.
    More broadly, the security systems issue--and, again, I 
think Amanda Dory can speak in great detail about the level of 
security assistance that is occurring right now.
    But we have been able to, pursuant to the Leahy Law, create 
essentially two new battalions with whom we are working--one is 
specialized counterterrorism force, and the other a Ranger 
Battalion to create their specialized military capabilities 
with regard to the kind of military challenges that Boko Haram 
presents.
    Chairman Royce. Here would be my suggestion. Thank you. 
Here is my suggestion. Ask for a temporary waiver. If you don't 
want the permanent waiver, ask for a temporary waiver, 
designate this as an extraordinary circumstance, and get to an 
answer to the point that your colleague made from the 
Department of Defense that it is a ``persistent and very 
troubling limitation on our ability to provide assistance, 
particularly training assistance, that the Nigerians so badly 
need.'' That is the statement from the Department of Defense. 
It needs to be addressed.
    But I need to go to Mr. Engel. My time has long since 
expired.
    Mr. Engel.
    Mr. Engel. Thank you. Thank you very much, Mr. Chairman.
    I was in favor of declaring Boko Haram as a terrorist 
organization, but I want to address the undercurrent with some 
of my friends on the other side of the aisle that somehow the 
lack of designating them as a terrorist organization earlier 
contributed somehow to this kidnapping. I think that is absurd.
    You know, when the State Department didn't designate Boko 
Haram as an FTO, it wasn't because anyone was being careless. 
It wasn't because they weren't paying attention. It was a 
policy decision based on facts on the ground.
    Facts changed and the Department issued a designation. It 
is not clear what the designation does--asset freezes and Visa 
bans and prohibition of material support--that that has 
actually made a difference.
    But, you know, designating Boko Haram as an FTO earlier 
would have helped the organization's fundraising and recruiting 
efforts. Organizations like Boko Haram aren't afraid of being 
branded terrorists by the U.S. That word is a badge of honor.
    I am also told that the Nigerian Government didn't want the 
designation. That is the reason the State Department didn't 
issue it.
    And in May 2012, 25 leading experts on Nigeria wrote the 
State Department, saying that an FTO designation for Boko Haram 
was a bad idea.
    And in 2012, the State Department did designate the top 
three leaders of Boko Haram as specially designated nationals, 
which are terrorists, meaning that we could go after them and 
their network.
    And, in fact, Secretary Clinton visited Nigeria in 2012 to 
consult with the Nigerian Government on how we could work 
together.
    So while I have been in favor of declaring them as a 
terrorist organization, I don't think anyone can seriously 
think that, if we had done it earlier, it would have somehow 
prevented this kidnapping.
    So I would like either Dr. Sewall or Ms. Dory to comment on 
what I have just said.
    Ms. Dory. Congressman--Ranking Member Engel, I think it is 
fair to say that we work closely with host nation governments 
regardless of the designation issue. Boko Haram has certainly 
been on the radar screen in terms of the type of security 
cooperation that has been effective with Nigeria since it 
emerged in the Nigerian context years ago.
    So the point about the formal designation, it brings some 
additional tools to bear. Principally, in the financial domain, 
you mentioned the Visa bans as well. So it can be helpful from 
that perspective. But it does escalate, in a sense, and that 
can be why, when engaging with host nations, they may be 
reluctant to have such an international designation because it 
draws more attention to the problem, potentially, in 
unproductive ways.
    So I think that is making a linkage to at what point did 
the designation occur and the practical engagement that has 
been underway with the Nigerians are really separate issues.
    Ms. Sewall. I think the key point is the extent to which 
sanctions actually achieve their objectives.
    And I think one of the reasons why the administration 
decided in June 2012 to designate the three top commanders of 
Boko Haram as specially designated terrorists was because most 
of the tools that would be available against Boko Haram, as an 
organization, were then available to use against those three 
recognized leaders.
    The Rewards for Justice Program was an additional effort to 
find ways to put pressure on the organization. And what 
fundamentally changed in the context of the FTO designation 
that followed both of those actions was the ability to take 
action against the group as opposed to its three top leaders.
    So I think it is in that context that it is very important 
to look at the evolution of U.S. actions, and the primary 
significance, I think, was in the June 2012 designation of the 
three Boko Haram top leaders as specially designated 
terrorists.
    Thank you.
    Mr. Engel. Thank you.
    Let me ask you both this: Given the enormous domestic and 
international attention following these kidnappings, has the 
Nigerian Government--I said some of it in my opening remarks, 
and, Ms. Dory, you mentioned it as well--has the Nigerian 
Government become more receptive to our messages, urging them 
to change their approach to Boko Haram? And what concrete 
things have they done to shift their strategy and their 
relationship with us?
    Ms. Dory. I believe the quick answer is ``yes.'' The 
intensity of international public opinion and support is 
productively contributing to our dialogue with the Government 
of Nigeria.
    I think their willingness to accept the multidisciplinary 
team and their robust engagement with it since its arrival are 
the most concrete indicators in the near term.
    Ms. Sewall. In my recent visit with AFRICOM Commander David 
Rodriguez, we stressed both of the points that you referenced, 
both the need to take rapid action to rescue the girls and the 
need to fundamentally rethink their approach to 
counterinsurgency.
    We talked a lot about the evolution of the U.S. approach to 
counterinsurgency and the ways in which it is critical to think 
of a holistic approach, the ways in which a careful approach to 
violence is absolutely vital for attaining the cooperation and, 
therefore, the intelligence from the local population, one of 
the main hindrances in the fight against Boko Haram thus far.
    And we also spoke frankly about our concerns about the 
inability of a seemingly very large defense budget to translate 
into the receipt of bullets and workable trucks at the level of 
the 7th Division in the northeast.
    Mr. Engel. Does the State Department have an estimate of 
how many people the Nigerian security forces have killed over 
the last 4 years in Northern Nigeria?
    Ms. Sewall. We do not have an estimate.
    But I will tell you that, given my own background as 
someone who urged the United States Government to count 
civilian casualties during its counterinsurgency campaigns, 
this was an issue that I raised repeatedly with all four of the 
military officials with whom we met.
    And my strong advice to them was that they would be unable 
to evaluate and reform their efforts to protect civilians and 
to more directly avoid killing civilians by mistake unless they 
very carefully tracked those casualties.
    So it is my hope that, going forward, we will be able to 
see progress in that regard.
    Mr. Engel. The chairman and I agree on what we in the 
United States must do in order to help bring these girls back 
in terms of working with other countries and forces.
    Could you outline for us what are some of the operational 
challenges to finding and rescuing these girls.
    Ms. Dory. Thank you.
    The operational challenges are significant. You have seen 
some of the comparisons in terms of the vastness of the terrain 
in which the girls may be located.
    We are working with our Nigerian counterparts and other 
international partners to develop a better understanding of 
where they may be, but our sense at this point is that they 
have been dispersed into multiple smaller groups. They may or 
may not all be in Nigeria.
    So the sheer number of individuals involved, the complexity 
of the terrain--jungle for a great part of it--and the movement 
that could be associated over the weeks that have elapsed, 
creating a greater area of operations, make this a very 
difficult environment in which to contemplate what a recovery 
might look like.
    Just to give an example, if you think back to the hostage 
incident in Amnas, Algeria 2 years ago, where you had 800 
hostages who were in a single location and the Algerian 
Government and military took action as the AQIM and Mokhtar 
Belmokhtar began to separate and disperse the hostages, they 
engaged in an assault that left 40 of the hostages dead, and 
that was in a desert environment and the hostages were all 
concentrated together.
    So it would be hard to overestimate the complexity, first, 
of locating the hostages and then in considering how that might 
be resolved successfully.
    If we had an FBI witness here today, he or she, I imagine, 
would indicate that the vast majority of hostage recovery 
situations are resolved through dialogue and negotiations and 
not through rescues and assaults.
    Mr. Engel. Thank you.
    Anything to add, Dr. Sewall?
    Ms. Sewall. I think any military experts in hostage 
recovery would also tell you that a dialogue is often very 
helpful even in the event that dialogue fails.
    And so I think we have to be respectful of the ways in 
which the Nigerians may choose to try to achieve the safe 
return of the girls.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. We go now to Mr. Chris Smith from New 
Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Thank you for your testimony.
    A couple of questions. I know this--and I am cognizant this 
is an open hearing. But do you have reason for optimism that 
progress is being made in ascertaining the whereabouts of these 
abducted young women and any indication at all about their 
welfare and well-being, their health?
    Ms. Sewall. I would say that the team, when I spoke to them 
yesterday, was very pleased by the level of cooperation, was 
very pleased by the multiple sources of information flowing 
into the Intel Fusion Center, was encouraged by the 
professionalism and the commitment of the Nigerians in the 
Intel Fusion Center, and was hopeful that the degree of 
intelligence information would continue to increase over time.
    Given time, I am hopeful that we will make progress. And I 
think that is the extent to which I can respond in this 
context.
    Mr. Smith. Thank you very much for that.
    Let me ask you with regards to the designation of FTO 
status, which I think is a very serious issue. On July 10, 
2012, I chaired a hearing. Assistant Secretary for African 
Affairs Johnnie Carson testified, and I asked him repeatedly at 
that time why Boko Haram was not designated a Foreign Terrorist 
Organization. And he said, while acknowledging it is a very 
important question, that he believes that the larger element--
he goes,

        ``We believe that the larger element of Boko Haram is 
        not interested in doing anything but attempting to 
        discredit, disgrace the Nigerian Government.''

    He went on to say--this is Ambassador Carson speaking--

        ``I would remind people that the phenomena of Boko 
        Haram is one of discrediting the central government in 
        power for its failure to deliver services to the 
        people.''

    In retrospect, do you believe that was an assessment that 
had validity, I mean, services to the people, that is why they 
are doing this?
    I would also note parenthetically that Principal Deputy 
Assistant Secretary Robert Jackson acknowledged last week that, 
``In retrospect, we might have done the designation earlier.'' 
He then added, ``I think we will be quicker to make 
designations based on our own assessments earlier based on 
this.''
    I actually went, as you may know, in September of last year 
to Jos and to Abuja and repeatedly raised the question of 
Foreign Terrorist Organization designations. And, frankly, in 
government meetings on the Nigerian side, in meetings with our 
own people in the Embassy, there was a very strong sense that 
this could have a very valuable effect, particularly in 
tracking where all the weapons are coming from.
    Maybe they don't have bank accounts. Maybe they do. I don't 
know. But if we really look and probe and try to discern who is 
providing the AK-47s and the IEDs and the like that are killing 
so many people, we may be able to put a tourniquet--or at least 
begin putting a tourniquet on this bloodshed.
    So your sense on that statement that this--you know, 
statement that was made by, again, Johnnie Carson, ``The 
phenomenon of Boko Haram is one of discrediting the central 
government in power for its failure to deliver services to the 
people.''
    Ms. Sewall. I think it is hard to look at Boko Haram as an 
insurgency that rests predominantly on the failings of the 
State, but there is no question that the failings of the State 
create a context in which disaffected voices are prey to 
recruitment.
    And when you look at the specifics of Boko Haram's tactics 
in terms of forcible recruitment of persons, that is a way to 
explain how it continues to survive, additionally.
    I think, from the perspective of our efforts to counter 
Boko Haram from the outside, from legal mechanisms that exist 
outside of the Nigerian context in which the Nigerian decisions 
are central, the important step, to me, was the June 2012 
designation of the three leaders as----
    Mr. Smith. Let me just ask you--because I am almost out of 
time--should we have done the FTO designation earlier?
    Ms. Sewall. I wasn't here; so, I don't know. I think that 
the most----
    Mr. Smith. You are in a very high position. I look back and 
forth. We all do all the time.
    Ms. Sewall. Right.
    Mr. Smith. Should it have been done?
    Ms. Sewall. Right. Well, I thank you for your leadership on 
this important issue. And it is clear that the committee played 
a very vital role in continuing to press the issue.
    I think the important thing is that the three leaders were 
designated in 2012, and the organization as a whole----
    Mr. Smith. I understand that. I am almost out of time. I 
will just ask very quickly.
    Have there been attacks by Boko Haram against Americans? 
Jos has the highest number of Americans in Northern Nigeria. 
Following yesterday's bombings, have all Americans been 
accounted for? And for the record, when the U.N. compound was 
bombed, were any Americans present?
    Ms. Dory. I am not aware that there were Americans involved 
in the U.N. compound bombing. And I think, in terms of Jos, we 
would have to check with the Embassy to see if there is a full 
accounting of Americans. I am not----
    Chairman Royce. You can get back to us, then.
    Mr. Brad Sherman of California.
    Mr. Sherman. Thank you.
    Ms. Dory, perhaps you could give me a one-word answer. Boko 
Haram has got a lot of weapons. Are they mostly captured from 
the Nigerian military, purchased, or we don't know?
    Ms. Dory. If I could give slightly more than one word, it 
is a mixture, in our understanding. They have resources as a 
result of kidnapping-for-ransom operations. So they are able to 
purchase, to include----
    Mr. Sherman. Are the weapons that we have seen them use or 
captured from their caches or stores the same weapons found in 
Nigerian military arsenals?
    Ms. Dory. Some of them are also captured from Nigerian 
security services or in raids against arsenals. So it is a mix.
    Mr. Sherman. Okay.
    Dr. Sewall, Mr. Mamman Nur is a high-ranking member of Boko 
Haram. According to open sources, he may be a key link between 
that organization and certain AQ affiliates, like Al-Shabaab. 
He may have been behind the 2011 U.N. bombing.
    Should we be designating this individual as a specially 
designated global terrorist?
    Ms. Sewall. I don't know the answer off the top, and I will 
have to look into that and get back to you. I simply can't 
answer that right now. I apologize.
    Mr. Sherman. There are lots of reports in the press that 
the Nigerian military knew hours in advance of this attack.
    Do either of you have any information that would either 
confirm or discredit, beyond what we have all read in the 
newspapers?
    Ms. Dory. I am familiar with the press reports, but don't 
have additional information either way.
    Mr. Sherman. Dr. Sewall, I am trying to understand the 
attitude of the Nigerian Government. It is acting as if it is 
almost disturbed that the whole world is now focused on Boko 
Haram.
    Can you explain why the Nigerian Government wasn't pressing 
us to designate Boko Haram as a terrorist organization and 
wasn't doing more to bring in international support in its 
efforts against this terrorist organization?
    Ms. Sewall. Well, I am not sure I can really speak for the 
Nigerian Government, but I can share with you, Congressman, my 
impressions based on the conversations that we had in our 
recent visit.
    And so I think the Nigerian Government believes that it has 
heard the message about the need to change the way it does its 
business.
    It believes it has taken a more offensive approach in 
recent months, and it has expressed the belief that the more 
recent rounds of bombings have been the efforts by a desperate 
group to gain attention.
    I think that the Nigerian view about international 
attention was misguided in some ways along the same lines that 
I have heard commentary in the U.S. public discourse, which is 
to say that the world ignored Nigeria and is now only now 
focusing on Nigeria with the kidnapping of the schoolgirls.
    And so I found myself reiterating the decade-long security 
cooperation assistance that we had had and the messages that we 
had been sending them about corruption, about the comportment 
and accountability----
    Mr. Sherman. And I will point out we would have designated 
Boko Haram earlier had we not, I think correctly, taken into 
consideration the views of the Nigerian Government. It is just, 
I am confounded as to why the Nigerian Government wasn't 
pushing us forward, why they were pulling us back.
    We have designated certain individuals. We have designated 
the entire organization. The view I have of Boko Haram is that, 
of all of the Islamic extremist organizations, they are the 
ones that are most in the jungle, the least likely to have bank 
accounts, et cetera.
    Have we successfully frozen any of the individual assets of 
the specially designated global terrorists--frozen any of the 
assets or been successful in going after Boko Haram?
    A lot of discussion here is, ``Why didn't we do it 
sooner?'' But we did do it over 6 months ago. And if they are 
really an in-the-bush organization, that would have very little 
effect on them, a great effect on us psychologically because we 
like to feel like we have done something, like we indict 
Chinese military officers because they are engaged in hacking.
    But other than making us feel better, what have we been 
able to accomplish with all these designations?
    Ms. Sewall. I would need to refer you to my colleagues in 
other agencies to speak to the specifics of the enforcement 
actions pursuant to the sanctions designation. And perhaps in 
the hearing tomorrow----
    Mr. Sherman. But you are not aware of anything that the 
designations of certain individuals as specially designated 
global terrorists or the designation of Boko Haram as a 
terrorist organization--to your knowledge, there isn't any 
particular bank account, a particular intercepted or prevented 
fundraising effort, no tangible effect of 6 months--well, more 
than 6 months of such designations?
    Ms. Sewall. Unfortunately, I really need to refer you to 
the colleagues that do the enforcement. I am just not in a 
position to answer the question. I apologize.
    Mr. Sherman. I yield back.
    Chairman Royce. Congressman Sherman, in answer to your 
first question--or further answer to it--there was testimony 
from the FBI, and I will just give you their quick response.
    FBI Director James Comey testified that Boko Haram has 
communications, training and weapons links with al-Qaeda in the 
Maghreb, as well as Al-Shabaab based in Somalia, and al-Qaeda 
in the Arabian Peninsula based in Yemen.
    And then he also testified that these links, in his words, 
``may strengthen Boko Haram's capacity to conduct terrorist 
attacks against U.S. or Western targets in the future.''
    So in terms of the weapons movements, that is the FBI's 
testimony.
    Mr. Sherman. It is good to have expertise both from there 
and from here.
    Chairman Royce. Right. Right.
    We go to Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    Let me just say, last night I watched the video again of 
Boko Haram, the leader with these 270 girls, and it is 
horrific, and it is hard to stand back idly and watch that 
happen, knowing that we could do more to help them.
    The chairman raised the issue of the waiver process. And I 
guess my question to Dr. Sewall is: If that waiver was granted, 
what additional assistance could be given to this situation?
    Ms. Sewall. I think one of the distinctions that I have 
been trying to articulate is that the waiver really is geared 
toward the training and material support for forces.
    And some 50 percent of the Nigerian military at this point 
in time are not eligible for that form of cooperation with the 
United States because of the Leahy Law.
    So we have been able to engage in security cooperation with 
Leahy-vetted units, which is the remaining 50 percent.
    In terms of the operational pieces, I guess I should turn 
to my colleague, Ms. Dory, to speak about what additionally 
might happen in a waiver.
    But at this point we are doing everything that the 
Nigerians want us to be doing, and we are there and available 
to do more, completely consistent with the Leahy Law, with our 
deployment teams, and our military planners there in Abuja.
    Mr. McCaul. Ms. Dory, if that waiver is granted, what 
additional assistance militarily could be provided?
    Ms. Dory. Sir, it is predominantly a function of what type 
of assistance is requested by the Government of Nigeria. We 
have a complete menu of training activities, equipping 
activities, advising, assisting, the usual inventory that the 
Department can pursue in partnership with another country. But 
it really rests with the host nation to identify in what areas 
it wishes to cooperate.
    Mr. McCaul. You mentioned earlier that a military operation 
would be risky and risky to the hostages, and I understand 
that.
    But has there been any effort to have our FBI's hostage 
rescue team assist with this?
    Ms. Dory. There are FBI personnel who are part of the 
multidisciplinary team, and I believe the services of the FBI's 
hostage recovery experts are on the table.
    Mr. McCaul. Well, I would hope so. I would hope the answer 
is ``yes'' to that question. I think they could be very 
valuable in this situation.
    I chair the Homeland Security Committee. In 2011, we 
released a report, ``Intel: Boko Haram Emerging Threat to the 
Homeland.''
    We asked that they be designated as an FTO back then 
because it would support U.S. intelligence in their effort to 
curb financing, to isolate it internationally, heighten public 
awareness, and signal to other governments that the threat is 
serious.
    In September 2013, we issued a follow-up report, ``Boko 
Haram, the Growing Threat to the Homeland,'' again asking that 
the designation take place. Members of Congress additionally 
made that request.
    And, finally, the head of the Justice Department's National 
Security Division sent a letter to the State Department 
requesting that Boko Haram be put on this list.
    Now, I know, Dr. Sewall, that, eventually, they were put on 
the list. But, you know, it took years to get the Haqqani 
Network put on the list. It took years to get Ansar al-Sharia 
behind the Benghazi attack put on this list. We still can't get 
the Quds Force to be put on this list.
    Why is it so difficult for the State Department to put what 
is so obvious on the Foreign Terrorist Organization list?
    Ms. Sewall. I can't speak to the decisions that were made 
before I came to the Department, sir. I am sorry.
    And I know that there are many different considerations 
that go into other decisions. I mean, in the context of the 
Nigerian case, I think I explained that there was a discussion 
with the government, there was a discussion about the nature of 
the threat, and there was a discussion about the efficacy, the 
true impact of the sanctions.
    I can only speak to that case, and I unfortunately can't 
speak to the prior cases.
    Mr. McCaul. Well, it is not just Members of Congress. It is 
not just the Justice Department. It is General Hamm. Carter 
Hamm talked about this threat. Director Clapper, the DNI, 
mentioned this threat. General Dave Rodriguez, Commander of 
AFRICOM.
    This is coming in from multiple points, you know, not just 
Members of Congress, not my committee, but multiple points in 
the military, the Justice Department.
    I don't really understand, when you look at that video, 
when it is so obvious that they are terrorists, why they 
weren't put on the FTO, which just maybe--it may not have 
stopped this event from happening, but at least we could have 
put some pressure on their financial ties and their funding 
mechanisms.
    With that, Mr. Chairman, I yield back.
    Chairman Royce. We go now to Mr. Gregory Meeks from New 
York.
    Mr. Meeks. Thank you, Mr. Chairman.
    First, Mr. Chairman, I want to thank you for the way that 
you have been conducting this hearing and the investigations 
and the education that you have done to talk about the waiver, 
to figure out how we resolve this.
    You have done it in a manner--and I think I want the record 
to be clear with me that I concur with you and your opinion on 
how we should be able to assist the Nigerian Government.
    I think that the research that you and your staff have done 
is excellent, and I want the record to reflect that this is 
clearly something that we all agree upon in that regard.
    I want to say to Ms. Peter, who is sitting in the audience, 
who I had to listen to her tell the horrible story in regards 
to her family that happened before her eyes in 2011. No child, 
no child, should have to see their parents killed and siblings 
before their eyes. None. And it really angers me inside when I 
hear that.
    And when you hear and see this group, Boko Haram, who now 
has kidnapped these 200 girls, but has killed boys, destroyed 
churches, taken away hope, there is no redeeming factor for 
individuals like that.
    They are in the same category as al-Qaeda and Al-Shabaab, 
and I want to make sure that we do everything that we can to 
free those girls. I don't care whether it is negotiation, 
whatever it is.
    But let me tell you I don't want that to be the end of it. 
You know, generally, I am a multilateral guy. And I think all 
of the countries--I haven't heard any country, anybody, dissent 
on the evil of this group.
    So I want somebody--I don't see why that, once we get these 
girls free--I am going to tell you, for me, I want drones, I 
want something, because they don't belong on this earth.
    Threatening people and having people living in fear, this 
is something that I see that this world--not just this Nation, 
but other nations all across, are coming together to say, ``We 
are going to stop this.''
    And we need to do it. We need to do it in Nigeria. We need 
to do it in Syria, Pakistan and Somalia, wherever Al-Shabaab--
wherever these individuals are.
    And then we have got to do more than that, because the 
attacks on these girls--over 200 schoolgirls in Northern 
Nigeria--we talked about it and it is a global outcry to keep 
children safe in schools and protect their right to education. 
But, unfortunately, we are all too aware of these same groups--
extremist groups that are doing the same thing.
    So I am wondering whether or not there is a plan to ensure 
that children--all children, especially those in conflicted 
areas, are protected and have access to quality education.
    I know you can't answer that question, but I am just upset 
right now. I wish I could think rationally, as the chairman 
does and has done.
    That is why I think that it is a good thing that he is 
doing this because you need rational thinkers at a time like 
this and not having emotions taking over, as it is doing with 
me.
    But I am. Just listening to Ms. Peter's story has made me 
that I can't, you know, do what the chairman has done. So I 
thank God that the chairman is doing what he is doing right 
now.
    But, you know, it seems to me that I have got, like Ms. 
Peter, the same year--15-, 14-year-old daughter, who is asking 
me about this scenario and what are we doing and what should we 
do. So when I am thinking that, I can't think rationally.
    Tell me why--Ms. Sewall?
    Ms. Sewall. First, Congressman Meeks, I want to tell you 
that I can be every bit as irrational as you are on this issue. 
I don't think there is a single American that doesn't detest 
Boko Haram from the bottom of their hearts.
    I have four daughters. I have three 17-year-old daughters 
and I have one 12-year-old daughter. And when I left them to go 
to Nigeria, you can imagine how heavily they weighed on my 
heart.
    And when I met with the activists that had been protesting 
the government's response to the crisis, when I called the 
principal of the school to express Americans' support for her 
and for bringing the girls back safely, I was able to give 
voice to the emotion that I think we all feel in the context of 
this immediate crisis.
    At the same time, it is abundantly clear that, if we are to 
move to address Boko Haram as an enduring threat beyond the 
question of these 200-plus schoolgirls, that the Nigerian 
Government itself has to make changes. It has to address 
corruption. It has to address the excessive use of violence.
    There are ways we can support them in those efforts, and 
there are ways that we can do specific things for them. But 
those are fleeting things. Those will not solve the Boko Haram 
problem.
    The Boko Haram problem in Nigeria needs to be addressed by 
Nigerians. The Boko Haram problem, as a regional threat, needs 
to be addressed by the regional actors.
    The value of this crisis is that it has brought together in 
a conversation all the actors that are seized not just with the 
schoolgirls, but with the enduring threat of Boko Haram.
    And this moment offers the hope that we will coordinate the 
assistance and focus the efforts to address the underlying 
problems here, which are the scourge of Boko Haram. But any 
sustained solution requires the Government of Nigeria to show a 
degree of commitment and to take a set of actions that it has 
thus far not committed to.
    And so we cannot lose sight of the fact that this is not 
our problem to solve, and we must seize the moment to bring 
together all of the voices of concern about the schoolgirls and 
about Boko Haram to press and support the Nigerian Government 
in undertaking its own critical changes and reforms.
    Chairman Royce. Thank you, Mr. Meeks.
    We go now to Mr. Jeff Duncan of South Carolina.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    And I want to thank Mr. Meeks for his passion on this 
issue. It is touching. And I share your passion.
    I just hope that that same passion will continue to carry 
forward as we talk about terrorists wherever they are, whoever 
they are, attacking not just interests in Africa, but Americans 
and folks that love liberty anywhere in the world. And so I 
appreciate that and look forward to working with you going 
forward.
    I listened to Ms. Peter's story. And thinking about 
Christians, in general, her father was a pastor. Her brother 
could have grown up to be a pastor, is what the terrorists 
thought.
    So the question I have for you, Ms. Sewall: Do you think 
Christians are specifically targeted in the Boko Haram attacks?
    Ms. Sewall. I wish there was such discrimination in Boko 
Haram attacks. Boko Haram attacks everyone who is Nigerian. 
Boko Haram is an equal-opportunity threat for all Nigerian 
citizens.
    Mr. Duncan. Thank you for that.
    I would like to delve into the links with al-Qaeda and the 
broader al-Qaeda network.
    Boko Haram's ties to other al-Qaeda-affiliated and 
associated groups, as well as the focus by some of its members 
on pursuing a more transnational agenda, have amplified 
concerns of the group's threat.
    U.S. officials have suggested that Boko Haram and al-Qaeda 
in the Islamic Maghreb, or the AQIM, were likely sharing funds, 
training, and explosive materials.
    So could you provide some clarity--and I am going to ask 
both of you this question and ask you to be brief--but could 
you provide some clarity to the extent of cooperation and 
support that AQIM has provided to this organization.
    Ms. Dory. Congressman----
    Mr. Duncan. Financial, material support. All that, please.
    Ms. Dory. In this setting, there are limits on the ability 
to go into detail. But we can absolutely confirm the categories 
that you are talking about in terms of the cooperation between 
Boko Haram and AQIM, in particular, where the ties seem to be 
the strongest, that it does include training, facilitation, 
financing of weapons. That is the type of influence and 
material that is being traded back and forth between AQIM and 
Boko Haram.
    Boko Haram also has sought linkages with some of the other 
AQ affiliates, as was discussed earlier, and the intensity of 
those linkages is less clear.
    But there is an all-member briefing tomorrow, at which I 
think--a classified briefing tomorrow where we could get into 
some of those details.
    Mr. Duncan. Ms. Sewall, a question that just came to mind: 
What is the State Department, the FBI, Treasury, doing to track 
the money?
    Do we have folks on the ground working with the financial 
institutions in and around Nigeria and Africa, in general, to 
trace this money to make sure that we know the sources and 
whether there are any al-Qaeda links?
    Can you tell me what we are doing in that regard, if 
anything?
    Ms. Sewall. Congressman, I wish I could. I don't have the 
details on that. But I would be happy to go back to the other 
agencies and to the specific elements of the State Department 
that might be involved in this and get you a more fulsome 
answer.
    Mr. Duncan. Okay. I appreciate that.
    The other thing is: Can you answer the question about the 
extent of the cooperation that you know of between Boko Haram 
and al-Qaeda affiliates? Material support, financial, anything 
you might be able to add.
    Ms. Sewall. Our understanding is that there is intermittent 
support as much as Deputy Assistant Secretary of Defense Dory 
described.
    Mr. Duncan. Are we connecting those dots within the State 
Department?
    Ms. Sewall. Sir, the State Department is always working 
hard to connect the dots.
    Mr. Duncan. Have any of the Nigerians who have been 
prosecuted in U.S. courts in recent years for providing 
material support to terrorist groups such as AQAP had any links 
to the Boko Haram group? Do you know of any connections?
    Ms. Sewall. I don't. But, again, I am not fully briefed to 
answer that question to 100 percent certainty. And so I would 
have to take it for the record, also.
    Mr. Duncan. Okay. Last question before my time runs out: 
Have we identified individuals within Boko Haram and put them 
on the terrorist watch list to make sure that they don't 
infiltrate the United States of America?
    Do we know who these leaders are, members of this terrorist 
organization? Have we put them on the list to make sure they 
are not going to infiltrate the United States of America?
    Ms. Sewall. I would be surprised if we haven't, given that 
they have been designated as specially designated terrorists 
themselves. But that is a DHS function. And so I can check on 
that and get back to you as well.
    Mr. Duncan. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman Royce. Thank you.
    We go now to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you for this 
hearing, and thank you for your sensitivity in bringing Deborah 
Peter to us for our conversation earlier before this hearing.
    It has been a tremendous honor to meet with her and to see 
her extraordinary courage and horrifying to hear the story of 
how she and her family were so brutalized by Boko Haram.
    I know that every member of this committee is committed to 
doing everything we can to hold these individuals accountable 
and to rescue these girls.
    So thank you for being with us today, Deborah.
    When you look at the information we have learned about the 
impact of this terrorist organization, in addition to more than 
4,000 people having been killed in Boko Haram-related violence, 
U.N. and Nigerian officials report that more than 6 million 
Nigerians have been affected and more than 300,000 Nigerians 
have been displaced.
    So I think it is really important for us to understand and 
for the world to understand the significant impact of this 
terrorist organization.
    So my first question to either Dr. Sewall or Ms. Dory is: 
Do we have a sense of where Boko Haram gets its resources, its 
weaponry and its financial support?
    Ms. Dory. Congressman, I think I have briefly touched on 
this already. But it is a variety of sources in terms of their 
access to finances and equipment.
    Some of it comes from their activities in Nigeria, whether 
it is stealing resources, food, equipment from local 
populations, whether it is taking them from the military and 
other security services in the course of attacks.
    You may be familiar with an incident where they destroyed 
aircraft at a Nigerian Air Force base, for example. So that is 
one source.
    They also, through kidnapping for ransom schemes, have 
financial resources at their disposal. So they are able to 
purchase weapons and supplies on the open market, and there is 
a connection into the Libyan arms markets in that regard.
    Mr. Cicilline. And I know that you have said, Ms. Dory, 
that the principal responsibility for defeating Boko Haram has 
to come from the Nigerian people and that requires them to 
focus on governance issues, reductions of corruption, ending 
mass arrests and disappearances within the government, and 
their own human rights record.
    So what can we do and--what is the U.S. doing or what can 
we do in addition to that to pressure the Nigerians to do that 
so they have the capacity to respond to Boko Haram?
    And what kind of leverage do we really have in this moment 
to really make that case with the Nigerian Government? And do 
you see any signs that they are serious about undertaking 
whatever those recommendations might be?
    Ms. Dory. I will take the question and, also, share it with 
my colleague.
    I think the head-of-state-to-head-of-state engagement that 
we have seen over this issue is indicative of both our level of 
concern and our level of support and our willingness to 
communicate it at the highest levels.
    So I think this is a very important time, both in terms of 
the U.S. support and determination and, coupled with that, from 
colleagues from around the world, all over Europe and beyond, 
who are similarly outraged at the situation and resolved that 
now is the time to provide maximum support and pressure as we 
engage with the Government of Nigeria.
    Mr. Cicilline. Last issue I just want to mention.
    I have been working on a piece of legislation to address 
this situation in which there is an emergency necessitating--or 
that should authorize the issuance of a visa. And I am just 
curious.
    It seems as if--this related, actually, to a mother who was 
attempting to come back to the United States to retrieve a 
child who had been murdered in the U.S. for burial back in 
their home country.
    And there was actually not a provision in the existing 
State Department protocol because she had no--not deep ties in 
her home country, no business, no employment.
    So, obviously, they argued that there was not a sufficient 
basis to give her a visa for fear she would overstay it and 
remain here.
    But in the example that we heard about this morning, it 
seems as if I am on the right track in trying to develop some 
exemption, some emergency issuance of a visa, for those who 
have been victims of terrorism or--you know, we can set out the 
criteria.
    But it sounded, at least initially, that Deborah was in a 
situation in which she was not given a visa, which I think 
everyone agrees doesn't make sense. And I would just like your 
thoughts on that.
    Ms. Sewall. I am sorry. I really know very little about the 
visa process. And so I just don't feel comfortable commenting. 
Thank you.
    Mr. Cicilline. Thank you.
    I yield back, Mr. Chairman.
    Chairman Royce. Thank you.
    We go to Mr. Mo Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    In your judgment, does Nigeria currently have the police or 
military capability of defeating Boko Haram?
    Ms. Dory. Congressman, from my perspective, Nigeria's 
military is the force with which I am most familiar. And they 
have been a premier peacekeeping force for many decades, 
focused external to their country, if you think about their 
long history in that regard.
    And the process of retooling from a peacekeeping 
orientation to focusing on a domestic insurgency is something 
that takes an entire recalibration in terms of how you engage 
in your home country.
    I would say----
    Mr. Brooks. Might I infer from your comments that you just 
made that the answer is ``no,'' that, as of today, they don't, 
that things have to be done before they have that capability?
    Ms. Dory. Part of it. When we speak of a capability, part 
of it is the strategic approach and the mindset. And, as yet, 
Nigeria has not yet finalized a counterterrorism strategic 
approach. Which, I think, leaves gaps in terms of the 
operational employment of the security forces, their training 
and readiness for those types of missions and then the 
equipment that is available to them.
    Mr. Brooks. Dr. Sewall, do you have a judgment on whether 
the Nigerian police or military have the capability of 
defeating Boko Haram as of today?
    Ms. Sewall. It is a great question, and I want to answer it 
thoroughly. So I have to step back for just one moment and say 
that the ability of a police force or a military force to 
effectively defeat a virulent insurgency is limited.
    And so that is just the first point to make, that this is 
why the U.S. has been in a dialogue with the Nigerians for the 
need for a holistic approach that includes economic 
development, social engagement, political empowerment and a 
host of other things.
    In a narrow sense, the Nigerians have capability that we 
would recognize as strong in the sense that they have a number 
of forces, they have a certain number of equipment.
    I think the challenge for both the police and the military 
is how their assets and resources, human and otherwise, are 
actually deployed.
    And that is why the questions about corruption and that is 
why the questions about, as DEPSEC Dory just said, the mindset 
are so critical.
    It took us----
    Mr. Brooks. I am not sure if I am getting a response. I am 
trying to get something simple, a ``yes,'' ``no'' or ``I don't 
know.''
    Do you have a judgment as to whether the Nigerian police 
and military have the capability as of today to defeat Boko 
Haram? ``Yes,'' ``no'' or ``I don't know.''
    Ms. Sewall. So the United States, when it began its 
invasion in Iraq, was the finest military force in the world--
--
    Mr. Brooks. I am sorry.
    Ms. Sewall [continuing]. And it was unable to----
    Mr. Brooks. I am asking for a ``yes,'' ``no'' or ``I don't 
know'' because I have limited time here. I can't go into a 
monologue.
    Ms. Sewall. It is complicated.
    Mr. Brooks. It is complicated.
    So maybe, maybe not? Is that a fair way to assess your 
opinion.
    Ms. Sewall. If you wish to describe it that way, that----
    Mr. Brooks. Well, what short answer can you give me that 
describes your opinion of whether Boko Haram today can be 
defeated by the Nigerian police and/or military?
    Ms. Sewall. I think that, with the appropriate political 
redirection, as well as the concerted effort on the part of 
specific capabilities, that the country of Nigeria, the 
Government of Nigeria, can make significant progress in 
defeating Boko Haram.
    Completely eliminating, I would hedge on that. The 
timeframe, I would hedge on that. But I don't think there is 
any question that the Government of Nigeria both can and will--
--
    Mr. Brooks. Thank you for your response.
    The very first sentence of the Charter of the United States 
in Chapter I, Article I, Paragraph 1, states:

        ``The Purposes of the United Nations are: To maintain 
        international peace and security, and to that end: To 
        take effective collective measures for the prevention 
        of threats to the peace, and for the suppression of 
        acts of aggression or other breaches of the peace.''

    If we were to look at the history of Boko Haram in Nigeria: 
August 26, 2011, a bomb attack on a U.N. building, 21 killed; 
January 20, 2012, attacks in Kano State, 12 targets, over 150 
people killed.
    We have already talked about the young schoolgirls who were 
kidnapped. May 5, 2014, an attack lasting 12 hours, 300 people 
killed. The list goes on and on and on. You have provided two 
pages of attacks.
    As of today, what has the Obama administration undertaken 
to secure a United Nations force to take on Boko Haram inasmuch 
as that seems to be the primary purpose of the United Nations 
Charter?
    Ms. Sewall. So, the United Nations Charter, as you know, is 
based on the concept of sovereignty. And so, typically, when 
there is an insurgency within a government, the government is 
expected to address the security threat and is free to seek 
assistance.
    Terrorism has typically been treated in a slightly 
different venue. Boko Haram has elements of both. And so I 
think that it is certainly--that there are a variety of ways in 
which the international community can respond to what is 
increasingly recognized as----
    Mr. Brooks. Okay. Again, I don't think you are responding 
to my question.
    My question was: What has the Obama administration done to 
request the kind of support from the United Nations that we 
would need to eliminate Boko Haram's influence in Nigeria and 
Central Africa inasmuch as that is the primary purpose of the 
United Nations?
    I don't know how we can be any clearer when the United 
Nations says in its Charter:

        ``[T]o take effective collective measures for the 
        prevention [and removal] of threats to the peace, and 
        for the suppression of acts of aggression . . .''

    So what has the Obama administration done to invoke the 
United Nation's charter to get the United Nations to do their 
job?
    Ms. Sewall. Right now, the way the Obama administration has 
interacted with the United Nations on the question of Boko 
Haram is to encourage the Nigerian Government to designate Boko 
Haram pursuant to the al-Qaeda list.
    What the United States and the Obama administration has 
been doing since President Obama has been in power is working 
to strengthen Nigeria's capacity to defeat Boko Haram. So we 
have been very actively engaged in this. This engagement began 
before the Obama administration.
    And, ultimately, the Nigerian Government has great progress 
that it can make to defeat Boko Haram. It needs to decide and 
commit itself to do that in ways that are similar to those 
learning curves that we, the United States, have had to take in 
defeating----
    Mr. Brooks. Thank you, Mr. Chairman, for indulging.
    Chairman Royce. Thank you.
    We go to Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    Here we go again. So, Dr. Sewall, clearly it is the fault 
of the Obama administration that these young girls were 
kidnapped. Is that true?
    Ms. Sewall. No.
    Mr. Connolly. Someone in the administration embedded with 
Boko Haram?
    Ms. Sewall. Do you really want me to answer the question?
    Mr. Connolly. Yes, ma'am.
    Ms. Sewall. No, sir.
    Mr. Connolly. No.
    Conspiracy to turn a blind eye to the activities of Boko 
Haram?
    Ms. Sewall. No, sir.
    Mr. Connolly. Changing talking points to make sure that 
somehow the administration was protected even at the expense of 
innocent victims of Boko Haram?
    Ms. Sewall. No, sir.
    Mr. Connolly. Dilatory tactics by the administration to 
prevent effective action by the United Nations, well known, I 
might say to my friend from Alabama, for its effective actions.
    So we were engaged in some kind of activity in New York to 
slow it down and not designate them in a timely fashion or 
coordinate international reaction to the unspeakable outrage of 
the kidnapping of these young women?
    Ms. Sewall. I would argue that the United States has been 
among the most concerned about Boko Haram for the longest 
period of time among all the actors within the international 
community.
    Mr. Connolly. Including at the United Nations?
    Ms. Sewall. It has been a concern of American officials for 
some time, as evidenced by our significant both personnel and 
financial investments in enhancing----
    Mr. Connolly. Including at the United Nations?
    Ms. Sewall. Including at the United Nations insofar as we 
have been supporting Nigeria's efforts to designate the 
terrorist organization.
    Mr. Connolly. Thank you.
    So, I guess, from your testimony, there is no evidence 
whatsoever of anything other than an administration deeply 
concerned and doing everything in its power to try to assist 
the international community and the Government of Nigeria and, 
when necessary, to prod the Government of Nigeria to try to 
take effective action to defang Boko Haram and to release these 
young women. Is that correct?
    Ms. Sewall. It is a high priority of the United States 
Government, and we have been consistent in our efforts. Yes.
    Mr. Connolly. It just strikes me as something not worthy of 
the Congress, when we actually continue to fall into a false 
narrative, to try to make partisan political points when we are 
trying to do foreign policy.
    There used to be a time--it was actually a Republican who 
pronounced the philosophy that our partisan differences ended 
at the water's edge for the sake of the country.
    And it just seems to me something deplorable that any of us 
would yield to the temptation--no one here, of course--to try 
to make political points off of this kind of tragedy and to 
hold the President and his administration somehow responsible 
for every event, especially every unsavory or tragic event, 
that occurs around the world is simply nonsensical. It may play 
well on certain networks with certain pundits, but it is not 
worthy of a great country and it is not worthy of this 
Congress.
    Why can't we come together to try to support a cohesive 
policy to effectuate the goal, which is to lessen and dismantle 
Boko Haram and to release safely these young women to their 
families and try to prevent that kind of kidnapping activity 
from ever recurring again? Isn't that really the goal of the 
United States Government, Dr. Sewall? Ms. Dory?
    And I need you to answer on the record. A shaking head 
doesn't--we can't record that.
    Ms. Sewall. I think all Americans share a concern about the 
schoolgirls and the threat from Boko Haram, and I believe that 
the United States will be stronger in supporting the desires of 
the American people, as it speaks with one voice, in that 
regard.
    Mr. Connolly. Ms. Dory?
    Ms. Dory. I agree with the objectives as you laid out, the 
safe recovery of the schoolgirls and the effective addressing 
of Boko Haram as a threat to Nigeria and the broader region.
    Mr. Connolly. And those are our goals? Those are the goals 
of this government. Is that correct?
    Ms. Dory. Those are among our many goals when we are 
relating to Nigeria and in the broader region.
    Mr. Connolly. Yes. I am talking specifically, since this 
hearing is focused on that, about the Boko Haram activity.
    And, obviously, it is not only the desire of all Americans, 
Dr. Sewall. It is, in fact, the pronounced policy of the United 
States Government that we want them released. Is that not 
correct?
    Ms. Sewall. That is correct. General Rodriguez and I 
traveled to Nigeria to convey that very point.
    Mr. Connolly. That is right.
    And one final question: Can you both reassure us that our 
Government is doing everything in its power to effectuate that 
end?
    Ms. Sewall. The President, the Secretary of State, and the 
entire government is doing everything it can to effectuate that 
end.
    Mr. Connolly. And from the Defense Department point of 
view, Ms. Dory?
    Ms. Dory. We have brought our maximum effort into the 
engagement with the Nigerians and hope we can support them in 
whatever way they will let us.
    Mr. Connolly. I thank you both for your testimony. And I 
assure you there are many of us up here who will be behind you 
and side by side in trying to make that happen.
    Thank you for your service to your country, and thank you 
for trying to help us achieve a positive end in this tragic set 
of events.
    Thank you, Mr. Chairman.
    Chairman Royce. Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Dr. Sewall, it is my understanding that officials have 
repeated--administration officials have repeatedly stated that 
Boko Haram is not motivated by religious causes, but by issues 
of economic deprivation.
    Is the State Department also led to that conclusion?
    Ms. Sewall. I am not sure whether there is a piece of paper 
that describes the State Department's view about the 
motivations of Boko Haram.
    What I can tell you is that we know from watching Boko 
Haram over the years that they are bent on destroying 
institutions that support the people of Nigeria in the 
northeast and that they have no compunction about killing any 
Nigerian that is in their path.
    Mr. Perry. I understand that. And I think we, as Americans, 
understand that.
    But I am trying to focus on how State Department views Boko 
Haram and----
    Ms. Sewall. We view Boko Haram as a terrorist organization.
    Mr. Perry. Okay. And what is their motivation? If you 
could, describe that. What are they motivated by? Not what are 
their actions. What are they motivated by?
    Ms. Sewall. Well, I am not in the head of their leader. I 
have watched the video like you have. And so I----
    Mr. Perry. I understand.
    But you make assessments. You must make assessments.
    Ms. Sewall. We do make assessments.
    Mr. Perry. To understand the adversary and the enemy, you 
must make assessments.
    Ms. Sewall. We do make assessments. As in the case of the 
LRA, sometimes it is easier to discern motivations than others.
    Al-Qaeda is very clear about its motivations. Some other 
terrorist organizations are a combination of criminally 
motivated, egomaniacally motivated, and opportunistic.
    And so I just----
    Mr. Perry. Would you accept that they are motivated by 
religious fanaticism--extremist Islamic religious fanaticism?
    Ms. Sewall. I can speak to the elements of religion that--
--
    Mr. Perry. I know you can speak to it.
    Is that a clear assessment or would you assess it somehow 
differently than I have just stated?
    Ms. Sewall. If you are asking for an official State 
Department assessment of the motivations of the leader of Boko 
Haram, I will need to take that question back and return it to 
you later.
    Mr. Perry. All right. Well, I just want to give you this 
information and you can roll that up into your assessment.
    The leader of Boko Haram says that, ``Nobody can stop us 
and live in peace except if you accept Islam and live by sharia 
law.''
    He also said that they will kill anyone who stands against 
the will of Allah by opposing sharia and that they are fighting 
a religious war against the Christians and has also said, ``By 
Allah, we will kill whoever practices democracy.''
    When he says things like that and he says that nobody can 
live in peace except if you accept Islam and live by sharia, do 
you see any economic nexus there?
    Ms. Sewall. When he talks about religion as one lens 
through which he defines his enemies, I think that is very 
revealing. When he talks about democracy as being one lens 
through which he defines his enemies, I think that is very 
revealing.
    When he decides that killing people who are seeking an 
education, it constitutes his ideology. I think that is very 
revealing.
    So I think it is a mix of things, among which clearly, in 
his rhetoric, religion is very important.
    Mr. Perry. Well, is there an economic--because I have heard 
the administration--I have got reports of the administration 
saying----
    Ms. Sewall. Okay, I understand now. Yes.
    So the economic nexus is something that we have learned 
through our own experience with combating both violent 
extremism and counterinsurgency, which is to say, if you have a 
well-governed, economically vibrant society, you are less 
likely to have disenfranchised persons who can be lured by 
extremist ideology of any type.
    Mr. Perry. I understand the lure.
    But that has nothing to do with their motivation. That is 
how they recruit. Their motivation is otherwise. And I am 
concerned about----
    Ms. Sewall. Their motivation is economic insofar as DEPSEC 
Dory was talking about kidnap for ransom as being a means of 
financing themselves.
    Mr. Perry. I understand that is the way of financing.
    But administration officials say that their motivation, the 
reason they exist, is due to economic deprivation that they 
don't have.
    But there are many countries and many people around the 
world that don't have and that don't resort to kidnappings, 
killings, bombings, and forced views on extremist religious 
ideology. But I move on.
    Does the administration--does the State Department accept 
and acknowledge that there is a nexus with Boko Haram and at 
least its leadership and the Muslim Brotherhood?
    Ms. Sewall. Do you want to speak to that? I don't know.
    Mr. Perry. Quickly, please, if you could.
    Ms. Dory. Congressman, from the Department of Defense 
perspective, I am not aware of a linkage. But I would be glad 
to take that back.
    Mr. Perry. All right. Well, I have got the linkage here 
which shows where the leaders came from--and it goes way back 
to the 1980s--the Muslim Brotherhood.
    And here is my concern in my last 15 seconds. It seems to 
me in some ways that the State Department is living in some 
altered state of reality, that most of America, yet most of the 
world, understands and recognizes and, if you can't acknowledge 
your adversary and your enemy for who they are, there is going 
to be no way that you can combat them effectively.
    And I appreciate, Mr. Chairman, just your indulgence as I 
close up.
    This holistic approach should include something in the 
national security strategy. And I can see no inclusion in the 
national security strategy that either of you folks are 
following. And that is my concern, because we can't fix the 
problem if we don't identify it.
    Thank you, Mr. Chairman.
    Chairman Royce. Mr. Juan Vargas of California.
    Mr. Vargas. Mr. Chairman, thank you very much for the 
opportunity to speak.
    I have to say I think you can see the emotions up here, 
because we are very much outraged with what has happened, and I 
think the American people are outraged.
    But I have to ask this question: Where is the Muslim 
outrage? I mean, I have to say that, if this happened and they 
did it in the name of Christ, from the Pope on down to the 
street preacher, everyone would be yelling and screaming, 
``This is not right. This does not follow our religion. It is 
wrong'' and people would try to find these girls and these 
people.
    So, I mean, I ask: Where is the outrage from the imams? 
Where is the outrage? This is an insult to Islam. It has to be. 
They are a peaceful people.
    I had the opportunity and the privilege of having a Muslim 
family live with me and my family for 2 years because of what 
was going on in Kosovo. So we adopted this family and they 
lived with us.
    And they are wonderful people and they lived peacefully. 
And they have two girls. I have two girls. And I have to say I 
love my daughters as much as they love their daughters.
    I have to ask: Where is the outrage? Could you answer?
    I mean, again, if this was happening in the name of 
Christianity, every official Christian group from, you know, 
the Catholics down to the unorganized Christians, everyone 
would think this was the biggest scandal in the world.
    Where is the outrage?
    Ms. Sewall. Well, where I heard the outrage when I was in 
Abuja was from the voices that were demonstrating in the public 
squares, which included community leaders and just community 
members and concerned citizens, many of them from the Borno 
State, who were by and large Muslim, and were outraged at the 
perversion of Islamic tenets in the rhetoric of the Boko Haram 
leadership.
    So I think certainly in the context of Nigeria there is 
outrage and it comes from the community that is most affected 
by these events.
    Mr. Vargas. Well, I have to say it doesn't seem like it. I 
mean, as someone who watches the news all the time and I know 
that the Muslim community in the world has gotten outraged over 
other things, where they protested in the street and, you know, 
have gotten very angry, understandably so in some instances, I 
don't see that here.
    I mean, I see us fighting and very frustrated over this 
issue. I see us, you know, fighting over whether the 
administration is doing enough, ``Why aren't we sending the 
soldiers?,'' you know, ``We have people there. We ought to go 
out and find them and shoot them and kill them and rescue these 
girls.''
    I mean, that is basically what we are saying up here. And 
we are frustrated because we don't seem to be able to do that. 
It violates a lot of laws. But I think, as every parent, that 
is what we want to do, go find the bad guys and put them away 
or shoot them.
    But you don't see--you don't feel this outrage in the rest 
of the Muslim world. You don't see it. It is shocking to me. 
You would think that they would be turning in these people and 
saying, ``Here they are. Come and get them. Here they are.''
    And you don't seem to--maybe you could tell us. Maybe you 
will tell us in a secured situation, a classified briefing.
    But is there that type of help in the community there? Are 
they helping us find the bad guys?
    Ms. Sewall. So if the question is whether tactically on the 
ground there is an outpouring of support to identify the Boko 
Haram people, I think the way to characterize the situation in 
Nigeria is that Boko Haram has so terrorized the local 
population that they are very fearful of being perceived as 
participants in the war by actively cooperating with the 
government.
    The situation, of course, is greatly complicated by the 
fact that security forces from the 7th Division have often, in 
their pursuit of Boko Haram, killed numerous civilians in 
addition to Boko Haram. So by virtue of trying to draw 
attention to an area, they could be jeopardizing their own 
children. And so it is very difficult----
    Mr. Vargas. No. That part is understandable.
    I mean, you know, no one is saying that the Nigerian 
Government has clean hands here. I mean, I think that is the 
issue.
    They have done some terrible things, and that is why I 
think the population has a lot of issues. I mean, that is the 
underlying problem you are trying to solve.
    But at the same time, it seems, if there was more outrage 
in the Muslim world, there would be more pressure to try to 
find these guys and rescue these girls, and there doesn't seem 
to be.
    I guess that is really my question.
    And I will yield back after that, Mr. Chairman.
    But, again, I find it disturbing that there is not more 
outrage, that the outrage comes from the Western world and the 
outrage should be coming from the Muslim world. We have got to 
do something here.
    Thank you.
    Chairman Royce. Thank you, Mr. Vargas.
    Ms. Dory has to be at the Pentagon for a meeting at noon, 
and we appreciate her being here this morning.
    I will remind members of an all-House closed session on 
Boko Haram, which Eliot Engel and I and the House will be doing 
tomorrow.
    Dr. Sewall has agreed to finish with our members who 
remain. So we appreciate that very much.
    But, Ms. Dory, we will let you go. Thank you.
    We go now to Ron DeSantis from Florida.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Dr. Sewall, I have been a little concerned with what I have 
heard in two of the colloquies. I know that my colleague from 
South Carolina, Mr. Duncan, had asked whether the Boko Haram 
attack on the schoolgirls was anti-Christian in nature, whether 
that was one of their motivations, and you seemed to suggest 
that it was not.
    Did I hear you correctly?
    Ms. Sewall. I believe what you heard me say is that the 
attack was against Nigerian schoolgirls.
    Mr. DeSantis. But you don't think that it was an attack 
motivated by being anti-Christian at all?
    Ms. Sewall. Again, you are asking for--speaking to 
motivation when I am unable to be in the mind of someone and, I 
hope, never to be in the mind of someone like the leader of 
Boko Haram.
    Mr. DeSantis. And I don't expect you to. But I do think 
that----
    Ms. Sewall. And, of course, in the case of the schoolgirls, 
I believe it was some 15 percent of them were Muslim. So it was 
the education and the freedom and empowerment and the progress 
that Boko Haram was attacking as it attacked the schoolgirls, 
as much as it was anything to do with religion.
    I am not denying that religion doesn't appear to be a very 
important factor for the leadership, but that is--that is 
different from saying it is the sole motivation. It is 
different from trying to understand the impact of their actions 
on Muslim civilians throughout the northeast.
    Mr. DeSantis. And I appreciate that. And certainly you 
can't get into their head. I just--and I don't necessarily say 
that it is the sole motivation, but I think we have to realize 
that this is an animating feature.
    I mean, you can't get into his head, but you can listen to 
what he says. And he said--and this is quoting from his 
speech--``We know what is happening in the world. It is a Jihad 
war against Christians and Christianity. It is a war against 
Western education, democracy, and constitution. This is a war 
against Christians and democracy. In their constitution, Allah 
says we should finish them when we get them.''
    So, clearly he believes that Christianity, 
constitutionalism, liberal democracy--he is putting those 
things together and he is saying that his belief and his 
version of Islam is what is motivating him to do that.
    And I think to try to--I mean, there was a colloquy with 
Mr. Perry about--you know, are they an Islamic terrorist group? 
Would you feel confident putting the fact that, yeah, there are 
terrorist groups specifically operating in the name of Islam?
    Ms. Sewall. Well, again, you know, when they recruit people 
forcibly and make them fight for them, I don't know what 
percentage of their force is essentially enslaved and what 
percentage of their force represents the extreme and neolithic 
views of the leadership.
    I agree with you completely that their rhetoric includes 
significant religious motivation, but it also includes 
motivation that reflects westernization more broadly.
    We know that modernization and westernization and 
education, for that matter, is an equal-opportunity, inclusive 
of all faiths process. And so they are motivated by something 
that goes beyond just Christianity based on what they say and 
what they do.
    Mr. DeSantis. But the modernity conflicts with their faith, 
and that is--and when he started his speech, he said, ``My 
brethren in Islam, I am greeting you in the name of Allah, like 
he instructed we should among Muslims. Allah is great and has 
given us the privilege and temerity above all people.'' So the 
anti-Western posture is flowing from this belief.
    And it is interesting. You read his speech, you know, and 
he starts getting into all kinds of issues. He says that he 
believes in marrying off 9-year-old girls. He thinks that is 
acceptable, and he cited a religious justification, the conduct 
of Muhammad, for that. He defends slavery and criticizes human 
rights. Again, he cited Islam as the reason for that. He 
threatens to kill the President of the United States.
    And so I think what we are dealing with here is--I mean, 
you see the video of those schoolgirls being forced to wear 
Islamic garb, being forced to recite the Koran. He is trying to 
spread this ideology.
    This group is spreading the ideology by the sword because 
they know that it is fundamentally at odds with human reason 
and that, if these girls are allowed to be educated in that 
school, they are obviously not going to think that his ideology 
is something that is very attractive.
    So that is what we are dealing with here, and I just hope 
that we can understand the motivation. If we try to put a 
Western frame of reference on how they behave and say, Well, 
maybe it is because they think there is some economic problems 
or this or that, you know, some of those things may be a factor 
at the margins.
    But at the end of the day, I think that that speech and 
their conduct make clear what their motivation is. And so I 
would just hope that we would be willing and always have our 
eyes open and not try to blind ourselves to reality.
    And I yield back.
    Chairman Royce. We go now to Lois Frankel from Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    Thank you, Dr. Sewall, for being a very calm-sounding board 
here today and, Mr. Chair, for this bipartisanship. I would 
call it a bipartisan show of humanity.
    And I very much enjoyed meeting today also with Deborah 
Peter, who has a lovely sparkle in her eye and a lovely smile, 
wonderful resilience.
    And she told us a very sad story of how she basically fled 
Nigeria 2 years ago after she witnessed the murder of her 
father and her brother and--because her father was the pastor 
of a Christian church.
    And then her 14-year-old brother was shot because, as 
Deborah related, her--one of the terrorists said, ``Well, he 
will grow up to be the pastor of the church.''
    I hope, Mr. Chair, that we are going to be able to help her 
with her visa issue and maybe--and to reunite her with her 
mother.
    And, Deborah, I wish you the best.
    She is studying to be a doctor.
    I know you will be a very fine doctor.
    You know, when I heard about these such children being 
kidnapped, I am sure I reacted like most people around the 
world, which is I thought of the time when my son was much 
younger and I would drop him off to school every day.
    And I can't even imagine what it would be like to have 
learned that his entire school had been kidnapped and then 
maybe sold into slavery. I know that I would be screaming from 
the top of my lungs and insisting that this government do 
everything possible to get them back.
    And there are some crimes against humanity that, no matter 
where they happen, it requires a response. And I know it is 
complicated, but I want to add my echo to what the chair and 
what so many of my colleagues said. First of all, I thank the 
President for sending a team, working with Israel, France, and 
the United Kingdom to try to bring these girls back. But as 
much as we can do, I want to add my voice to those who say we 
must bring these girls home. And, you know, this is more than 
just a crime against humanity.
    I wanted to get into this education angle, because ``Boko 
Haram'' means, I think, ``Western education is a sin.'' So--
because they know--they know that, when you educate children, 
it is a step toward freedom, democracy, and peace in the 
world--to have educated children, educated with a Western 
slant.
    And so, when we ignore--when we allow children to be 
kidnapped because they are partaking in Western education, we 
are failing our own children here.
    So I hope we can do more. And along those lines, I wanted 
to ask you--and I know this is a long-term situation.
    But what are we doing to try to fight the corruption that 
we are finding, which seems to be endemic in so many of these 
governments that are having such serious problems around the 
world?
    Ms. Sewall. Thanks.
    So, first, we don't shy away from the issue. We raise it as 
in the bilateral conversation because it is ultimately a 
limiting factor, not just in how we interact with the 
government, but, also, in terms of the government's ability to 
provide for and protect its citizens. We are vocal about our 
concerns.
    We also work with the--with specific elements within the 
law enforcement sector to improve both investigatory capacity 
and, in many cases, judicial capacity to identify and prosecute 
corruption cases.
    This has been a hallmark of our assistance in many 
different areas of the world, and it is capacity-building in a 
rule-bound, values-based, accountable and transparent ethos.
    It is slow work. It is painstaking work. And it does 
ultimately require the commitment of an ever-enlarging circle 
of leadership within whichever country we are seeking to 
support anti-corruption efforts.
    And many countries take different approaches to trying to 
address widespread and systematic corruption, and there are 
different degrees of successes, different approaches. So we 
continue to do whatever we are able.
    In the case of Nigeria, it has been very specific training 
and capacity-building. And we will continue to press this issue 
because, you know, Nigeria is themost populace country in 
Africa.
    It is, you know, an economic juggernaut, and it is 
extraordinarily diverse and extraordinarily important for a 
whole host of American security interests.
    They have elections coming up in 2015. The future of 
democracy is very much an issue in those elections in terms of 
both the transparency of the elections and the risk of violence 
afterwards.
    If Nigeria can address its corruption in a meaningful way, 
there is no limit on what that country can become. And it is--
it is a huge opportunity there for the government to seize; so, 
it is very much in their interest to address it. But the 
conversation will be ongoing, and we will continue to press it.
    Ms. Frankel. Thank you.
    Yield back, Mr. Chair.
    Chairman Royce. Thank you.
    We go to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Doc, appreciate you sitting through this.
    And I am looking at your title, Under Secretary of Civilian 
Security, Democracy, and Human Rights. And you have been there 
since February 2014. Correct?
    Ms. Sewall. Yes, sir.
    Mr. Yoho. I just find it interesting when I look back over 
the history of Nigeria the amount of foreign aid that has been 
given there--it is roughly--over $400 billion, which is six 
times the Marshall Plan to rebuild Europe after World War II--
for one country; yet, it is wrought with corruption.
    And the Department Under Secretary of Civilian Security, 
Democracy, and Human Rights--we have been fighting that 
campaign for, what, 20, 30, 40 years to try to correct that 
problem over there?
    And without putting blame on any administration, it is a 
problem with what we are trying to accomplish and how we go 
about it. We give money over and over again. Last year we gave 
$693 million. In 2012 we gave $647 million.
    The majority of their legislators make the highest wages in 
any government in the world, more than the British Parliament, 
yet the average wage--over 70 percent of the population lives 
below 1.29 pounds a day, which is about--less than $4 a day.
    And we are giving all this foreign aid, and then we have 
the situation with what we have with the Boko Haram and the 
situation we have with that. We are not getting to the root 
cause of the problem.
    How do you--what do you see that we do different than what 
we have done in the past to change the dynamics? Because if you 
don't change the dynamics, nothing is going to change.
    They are going to continue to kidnap people, they are going 
to continue to kill people, and they are going to continue to 
have a corrupt government. And I saw the Obama administration 
threaten to cut off all foreign aid to them, which I applaud.
    How do we go further and change the dynamics over there? 
And I would like to hear what you have to say about that.
    Ms. Sewall. Sure. Well, I think, you know, again, if we 
parse the question a little bit in the context of what kind of 
aid do we provide and what do we get for it, my understanding 
is that the bulk of our assistance certainly now--I can't speak 
to 40 years ago, but certainly now--is in the realm of health 
assistance, significantly HIV/AIDS assistance.
    Mr. Yoho. But that is going to continue. I mean, the 
problem is going to continue. If they don't care for their own 
people, we can't go in there.
    We can build any school you want, but if they are going to 
come back there and just dismantle it, it is--what do you do to 
the government to change government without telling them how to 
live?
    You know, what is that underlying cause or core value that 
they want to see succeed in their country for their people? And 
if they don't have that, we don't need to be giving them aid.
    Ms. Sewall. So the government--the government is not 
tearing down things. It is Boko Haram that is tearing down 
things.
    The issue of government performance in the northeast is 
related to its failure to defeat Boko Haram, which has many 
different components, as you are alluding to.
    Mr. Yoho. Boko Haram is just a fruition of government not 
being in check and taking care of what they need to because 
they are not building the infrastructure.
    If they are taking all that wealth--I mean, there is $11 
billion in oil money that was funneled off that went to the--to 
the politicians.
    Back in the 1990s, there was a--the President, Sani Abacha, 
died in bed with two Indian prostitutes worth $4 billion.
    They are not taking care of their own country and, if they 
don't want to take care of their own country, nothing is going 
to change.
    And I want to know what we are going to do from a foreign 
policy standpoint to change the dynamics of that.
    Ms. Sewall. So one of the important changes has been the 
movement toward democracy. I mean, I think we can all agree 
that that is a significant change in the context of Nigeria's 
history. And so one of the more important things to do is to 
support a transparent and accountable democratic process.
    And I spent a significant amount of time talking to the 
government about the upcoming 2015 elections and how it would 
be run and how, hopefully, they won't be disenfranchising the 
three states in the north by virtue of a state of emergency and 
how we need to be planning now--encourage them to plan now--for 
violence that predictably happens after the elections. So 
democracy is one big theme of change.
    But in terms of where I think you are coming from--and then 
the issue of--if you have a democratic system that is vibrant, 
you have the ability to hold people accountable.
    And so the focus that the United States has had on 
enhancing civil society voices to hold governments accountable 
and to demand greater transparency in budgets, for example, is 
a long-term process, but I think that is one hopeful mechanism.
    Mr. Yoho. How can you do that when over 70 percent of the 
population is below poverty? They don't have a voice.
    Ms. Sewall. Well, in many countries, including our own, 
there is great income disparity. But if you have a vote, you 
have a vote. And so that is, I think, an important element of 
democracy.
    I think, in terms of when I--when I look at the State 
Department's contributions to things that are occurring in--to 
capacity-building within Nigeria, I think they are in line with 
efforts to make the country more accountable and more 
responsible both as an international security actor and as a 
government.
    So, for example, military training and education, enhancing 
them in their role as regional peacekeepers, antiterrorism 
assistance, piloting a program on woman, peace, and security, 
helping them in the context of their regional security 
responsibilities and their West African regional security 
responsibilities, and improving rule of law, those are the 
kinds of programs that the State Department facilitates that I 
think are necessary elements of progress.
    But I agree completely with your point, and I hope I made 
it effectively in my opening remarks, that, ultimately, the 
government does need to be accountable, and corruption is an 
endemic problem.
    Mr. Yoho. All right. I appreciate your response. I am out 
of time.
    I yield back.
    Chairman Royce. And we are going to Steve Stockman of 
Texas.
    Mr. Stockman. I am listening to this debate, and it reminds 
me of the 1930s. We had a similar problem where we were trying 
to rationalize irrational behavior, and we didn't want to call 
it anything.
    We have a gentleman, if you want to call him a gentleman, 
who is committing genocide in a country. And we can't say what 
his motivation is, and we know what his motivation is. You may 
not be able to say it, but it is hatred. And he continues to 
hate.
    And I really resent one of my colleagues saying that our 
side is asking questions due to political motivation. We have 
the deepest compassion. We want to resolve this.
    But we can't--our side--we want to--we want to support the 
President, but we cannot gather around a hashtag. We want to 
see real action, and we want to call it--we want to call it 
what it is.
    This gentleman, or whatever you want to call him, hates. 
And I hear the same words coming from this administration, that 
they called the Speaker of the House. And the Speaker of the 
House they called a terrorist, and I don't think he is the same 
as what we are seeing in Nigeria.
    And I would like to yield a minute to my colleague from 
Alabama to respond to, I think, unfair criticism and the 
balance to my friend from New Jersey.
    But we have to start calling things what they are, and to 
equivocate on what they are and who they are is a mistake.
    Ms. Sewall. Could I just comment on that, sir?
    Chairman Royce. Without objection, let's yield to Mr. 
Brooks. And then we will have the response.
    Mr. Brooks. Mr. Chairman, I take a moment to respond to the 
rather partisan mischaracterization and distortion of my 
remarks by Congressman Connolly of Virginia.
    As the record shows and proves, I merely asked the 
witnesses to detail what the Obama administration has done or 
not done to encourage the United Nations in accord with the 
first sentence of its Charter to engage in ``effective, 
collective measures for the prevention of threats to the 
peace.''
    Mr. Chairman, I submit that question is directed at getting 
the United Nations to do its job so that America does not have 
to once again be the only sheriff in town in something all 
Members of Congress of both parties can get behind without the 
kinds of partisan attacks and responses that were recently 
uttered.
    Thank you for the time.
    Mr. Smith. I thank my friend for yielding.
    First of all, I want to make something very clear--and this 
hearing has made me even more concerned than I was when I 
walked in the door--and that is a fundamental misread of the 
radical nature of Boko Haram as it relates to radical Islamic 
belief.
    As my colleague, Mr. DeSantis, pointed out so eloquently, 
we have got to be able to call it for what it is. In 2012, 47 
churches--Christian churches were attacked, 2 mosques; 2013, 53 
churches attacked, 2 mosques.
    I went to Jos. Mr. Emmanuel was there when we went to an 
IDP camp. We met with hundreds of Christians who were targeted 
for one and only one reason, because they were Christians.
    And one man we brought here--and he sat where you sat--Mr. 
Adamu--and said they put an AK-47 to his jaw, right around his 
nose area, and blew his face off after he would not answer the 
question correctly. ``Will you convert to Islam or not?'' He 
said, ``No. I am ready to see my Lord. I am a Christian.'' And 
they blew his face away.
    That is the underlying fundamental raison d'etre of Boko 
Haram. Yes. They hate Western education. They hate a lot of 
things. But at the core, as Mr. DeSantis pointed out, I think, 
so well, just watch what they say. It is about radical Islamic 
belief.
    And I wish you--you know, you said you wished they would 
differentiate--or discriminate--they were so discriminating. 
Yes. They will hate other Nigerians. They will hate other 
Westerners. But Christians are their main targets.
    Secondly, I want to strongly associate my remarks and 
concerns with--concerns raised by Chairman Royce that the Leahy 
Amendment is having the unintended consequence of precluding 
best practices military training of well-vetted Nigerian 
forces.
    You said earlier--and I hope it was out of context--that it 
is not our problem to solve this. Well, maybe not alone, but 
certainly in tandem with the Nigerian Government and the 
families who have lost their daughters and others who may be at 
risk of losing their sons and daughters in the future.
    One of the biggest takeaways I had on that trip was talking 
to our own people who said, ``Leahy is a great thing. We are 
all for Leahy. I voted for Leahy, would always vote for it.''
    But it needs to be looked at in a calibrated fashion. There 
can be stood up forces in the Nigerian military who are well 
vetted to become a strike force and make all the difference in 
the world.
    And maybe they are about to do that, but it should have 
been done for years--not months, years--and there is nothing 
whatsoever partisan about this. I have raised this. Members of 
the other side have raised first the FTO concerns.
    And then we get again Johnnie Carson saying that--and I 
quote this because I still am amazed at this: ``The phenomenon 
of Boko Haram is one of discrediting the central government in 
power for its failure to deliver services to the people.''
    That is an insult to the poor. Poor people don't join the--
there is a radical Islamic perspective being promoted here and 
a gang-like mentality. And, of course, al-Qaeda and the like--
and others like it are a part of it.
    So please take back the idea of what Chairman Royce talked 
about because we do think, I think strongly, we have got to be 
able to help the military stand up capably.
    I yield back.
    Chairman Royce. Thank you.
    Dr. Sewall.
    Ms. Sewall. Thank you.
    And, Congressman, I appreciate your passion, and I 
appreciate your leadership on this issue for so very long. It 
is very important that Congress be participating in the 
formation of foreign policy.
    And I want to be very clear because I don't want to be 
misunderstood. The question that I was asked was whether there 
was an official State Department position on the motivations of 
Boko Haram, which I simply don't have with me.
    If the question is does the leadership of Boko Haram and do 
the actions of Boko Haram target Christianity, absolutely, 
unequivocally. More fundamentally, they target other things, 
too, and they are a threat to the government and to the region.
    And so I loved the very clear-eyed characterization that 
was just offered, which is that Boko Haram is motivated by 
hatred. I don't think anybody would disagree with that. I 
endorse it 100 percent. And I think it simplifies the problem 
because we all recognize that Boko Haram is a threat that must 
be addressed.
    I think, in terms of the Leahy Law, well-vetted units we 
work with--we work with now. We have been working with them for 
years. The problem can arise when units cannot be vetted.
    But where units are vetted--and only 50 percent have not 
been able to be vetted--the United States is engaging in robust 
security cooperation.
    And so I think it is just very important, as we look at the 
Leahy Law and as we remember that the fight in Nigeria is 
fundamentally about human rights and freedoms, we would wish to 
honor the Leahy Law's commitment to human rights in that 
context.
    And it is only if we were to find that we could not do 
that, be both consistent to the Leahy Law's commitment to human 
rights and work in support of the human rights of Nigerians, 
that we would need to look at alternatives.
    So I just wanted to both be very clear about my endorsement 
of the characterization as the motivation of Boko Haram as 
being hatred--and I think that is a very powerful and unifying 
way to think about the problem, which is a regional, if not 
international, problem--and agree with you that, in the context 
of the Leahy Law where units are well vetted, we should--and we 
are--work closely with them to enhance Nigeria's capacity to 
address this horrific threat.
    Thank you.
    Chairman Royce. Thank you, Doctor.
    I am just going to clarify this point, because this 
testimony was as late as last week by the Defense Department 
testifying in the Senate.
    And I will quote--because this gets back to the point at 
hand: ``The Leahy Law is a persistent and very troubling 
limitation on our ability to provide assistance, particularly 
training assistance that the Nigerians so badly need.''
    With my opening line of questioning, I laid out the 
difficulty. The difficulty is finding a way for our forces to 
assist with the capabilities that we bring, which are unique, 
to help track on the ground and rescue these girls.
    And so, without that waiver to come down to the bottom 
line, without that waiver to allow them to do that, and 
direction from the administration to have, you know, our Navy 
SEALs with this special capability that they have, you know, 
the ability to download information from satellite technology 
in the field and from drones and the ability to track in the 
jungle, the ability to sort of stand up that Nigerian unit and 
plan that operation right up to the point where Boko Haram is 
engaged and then allow the Nigerians to carry it out. But if we 
do that, then our likelihood of success is many multiples, in 
the viewpoint of everyone who has looked at this--many 
multiples of what it would be.
    And since we have had the offer from the British and from 
the French to engage and assist, it would be very wise simply 
to go back, get us that waiver.
    Because this is an extraordinary circumstance. I made the 
point before. I just want to reiterate it because I don't want 
us to get off the subject.
    Ms. Sewall. I didn't have a chance to respond before.
    Could I respond now, Mr. Chair?
    Chairman Royce. Yes. Absolutely.
    Ms. Sewall. Thank you so much.
    So there are two different issues, and I am guessing--I am 
not familiar with the DoD comment, but I am guessing that the 
concern about Leahy as a constraint was a concern in reference 
to the units for whom we were unable to vet, which is some 50 
percent of the Nigerian military.
    I don't wish to suggest it is not a problem, but it is 50 
percent. And so I just want to differentiate that from the 
question, which, Mr. Chairman, you are rightly putting, about 
the need to be cooperative in a very operational sense with the 
effort to return the schoolgirls.
    And here we are. By virtue of an agreement that I carried 
with me to Abuja, we have now intelligence-sharing 
arrangements. We have planners----
    Chairman Royce. Dr. Sewall, to get to the point, if you 
will recall my original testimony, you know what we do with the 
Lord's Resistance Army. We put our Special Ops in the field, on 
the ground, with Ugandan units and other units in order to 
track, in order to try to suppress Joseph Kony. Okay?
    Ms. Sewall. It is not a Leahy motivation, is what I am 
trying to----
    Chairman Royce. So in this particular case, we--we have a 
situation where we are not doing this. What I am suggesting to 
you is we are not doing it.
    When the issue is raised, the response is, ``Well, we would 
have to have a waiver to do that.'' Well, if that is the case, 
get a waiver, not from you----
    Ms. Sewall. I don't believe it is the case.
    Chairman Royce. We are not doing what we need to be doing 
on the ground in order to track and rescue these girls. This is 
what this whole debate is about, not the rhetoric around it.
    Ms. Sewall. I think----
    Chairman Royce. We are not doing it. So if you don't need a 
change to do it, if you don't need a waiver to do it, go back 
and report----
    Ms. Sewall. Yes. I will. I will take your----
    Chairman Royce [continuing]. That, in Congress, we feel it 
needs to be done now.
    Because the longer we wait and debate it, the farther 
removed these brigands get with their captives and the harder 
it is going to be to apprehend and rescue these girls. It 
should have been done immediately.
    And in the future, if a situation like this comes up, I 
would just suggest you have the discretion. Use it. Immediately 
go into the field and assist in the rescue.
    Now, without objection, we have a member who is not a 
member of this committee. But Sheila Jackson Lee wanted 
unanimous consent, if we could, for her to ask a question. So 
she might ask one question now.
    Ms. Jackson Lee. Let me thank the chairman and ranking 
member for their enormous courtesies.
    And thank you, Dr. Sewall and Ms. Dory, for your presence 
here today.
    I started going to Nigeria in the 1970s. I studied at their 
universities. And I actually stayed in the home of a family. 
The father was an engineer.
    And I feel the consternation in this committee, but I will 
tell them that the enormity of people in Nigeria are not 
corrupt and are looking for opportunities to do what is being 
said in this committee, to build this country into one of the 
best and most productive countries for their young people, not 
only in Africa, but in the world.
    I am very grateful for this committee that has focused on 
Africa with its subcommittee, but, more importantly, by its 
members. And I encourage our colleagues to go as you have gone 
and many others. I hold in my hand the list of kidnapped girls, 
and I do it and carry it with me all the time because these are 
names and people.
    So I would like to pose a question around your testimony 
about the rescue, but more importantly as well, about the 
regionalism of Boko Haram from Chad to Niger to Cameroon, Togo 
and beyond. Ghana is not far from Nigeria.
    And so the first question is--Members of Congress, women, 
went to the Nigerian Embassy and asked the country to establish 
a relief fund for the families, just announce and put in--put 
dollars in for the pain, the displacement--many of them may be 
trying to follow where the girls are, want to see whether the 
State Department--beyond our monies that we are giving for them 
to establish a relief fund.
    Secondarily, in your testimony, you said that you were able 
to work with new battalions, special forces and Rangers. I 
think you were talking about in the Nigerian military, that 
they were established as that.
    I am concerned that rescue would generate--that we would 
not endanger the girls. However, I do know that it is very, 
very concerning that there is not that concerted push using 
these particular battalions and special forces.
    So my question is on the relief fund and how can we 
collaborate with the African Union on the regional aspect. Is 
there any grounds for the U.N. peacekeepers? I know that 
Ambassador Powers is not here. And is there any way that you 
can encourage President Jonathan that his voice now, even 
though it is painful--his voice continuing to speak of their 
concern to the world is crucial?
    He made one point. And I will tell you I take a little 
credit for that because we were calling into Nigeria the day 
before the World Economic Council to indicate that he needed to 
say something, of which he said a little bit when he made his 
opening remarks. But now there is dead silence at least coming 
this way.
    So I ask: In your engagement, can you explain to them that 
it is important? We know how great Nigeria's potential is and 
what they have done, and I want to promote it all the time.
    But can we focus on this siege? Because this terrorist 
group is not going away unless we get our hands around it in an 
appropriate manner.
    Ms. Sewall. Thank you, Congresswoman.
    I am not aware of any new State Department initiatives to 
create a victims fund, if that is the--I understand----
    Ms. Jackson Lee. No. It is for Nigeria to create a relief 
fund----
    Ms. Sewall. I see.
    Ms. Jackson Lee [continuing]. And for the State Department 
to encourage them to do something for all of those families and 
pronounce it publicly and nationally.
    Ms. Sewall. So I think it is fair to say that, while I did 
not specifically emphasize that initiative, in all of our 
engagements with Nigerian officials, from the President 
throughout the administration, we are communicating very 
clearly that their leadership and their vocal leadership and 
their expressions of empathy with the people of the northeast 
in the fight--who are the victims of the fight against Boko 
Haram is absolutely critical and that more can be done to 
convey both the attention and the commitment and the empathy on 
that point.
    I think, as you point out--in terms of the regional 
ramifications, I believe this is a very important moment for 
concerned nations, if not the international community as a 
whole, to convince Nigeria of the need to redouble its efforts, 
to rethink its tactics in this fight, to flesh out its 
commitment to a soft approach and to identify clearly what that 
means in terms of the nonmilitary elements of a strategy to 
combat Boko Haram, to strengthen all regional platforms to both 
better understand the nature of the problem and to facilitate 
actions to address the problem concretely.
    So I think this is a very important moment. And while the 
tragedy of the kidnapping is a heartbreak for us all, I 
certainly hope that we can use this as a way to do as you say, 
which is to improve collective efforts to address the 
underlying problem of Boko Haram, which is not likely to 
disappear in the next year.
    Thank you.
    Ms. Jackson Lee. I thank the chairman very much.
    And I just want to conclude by saying I heard my 
colleagues, and I truly believe that the religious aspect looms 
very large. Because this started many years back and Christians 
were at the direct hit of Boko Haram. It has obviously spread.
    And I will finish by saying that we have tracked--and I 
know you have--millions of dollars that have come from the al-
Qaeda structure to Boko Haram. It is really an international 
issue, and it really is an issue that will impact the United 
States maybe at some point.
    And I think it is very important that we are in it for that 
reason and the reason for the love and need for these children 
to be returned to their families and the respect we have for 
the continent and its friendship to us.
    And I yield back.
    Chairman Royce. Well, we appreciate both of our witnesses 
being here this morning.
    Dr. Sewall, we appreciate you finishing out the panel. 
Thank you very much.
    The situation with these girls is critical. Members of the 
committee want to do all that they can to assist State and 
Department of Defense with any additional authority we may need 
in order to help secure a rescue.
    What I was suggesting, the technical terminology for it, is 
an upgrade to an advise-and-assist role. So if that could be 
conveyed, I very much appreciate it.
    And, also, we very much appreciate Deborah Peter being with 
us.
    Thank you so much for your meeting with the members of our 
committee this morning, Deborah.
    With that, we stand adjourned.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                    Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
